<html>
<title> - HYDROPOWER, RIVER MANAGEMENT, AND SALMON RECOVERY ISSUES ON THE COLUMBIA/SNAKE RIVER</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




    HYDROPOWER RIVER MANAGEMENT AND SALMON RECOVERY ISSUES ON THE 
                      COLUMBIA/SNAKE RIVER SYSTEM

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                   APRIL 27, 2000, PASCO, WASHINGTON

                               __________

                           Serial No. 106-94

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
       Committee address: http://www.resourcescommittee.house.gov

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-012                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL, II, West Virginia
JIM SAXTON, New Jersey               EDWARD J. MARKEY, Massachusetts
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A.DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH-HAGE, Idaho          FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CALVIN M. DOOLEY, California
WALTER B. JONES, Jr., North          CARLOS A. ROMERO-BARCELO, Puerto 
    Carolina                             Rico
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
CHRIS CANNON, Utah                   PATRICK J. KENNEDY, Rhode Island
KEVIN BRADY, Texas                   ADAM SMITH, Washington
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA MC CHRISTESEN, Virgin 
BOB SCHAFFER, Colorado                   Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HOLT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 27, 2000......................................     1

Statement of Members:
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho.........................................     4
        Prepared statement of....................................     6
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California, Prepared statement of.............     2
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     8
        Prepared statement of....................................    11
    Nethercutt, Hon. George, a Representative in Congress from 
      the State of Washington....................................    14
        Prepared statement of....................................    16
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................     8

Statement of Witnesses:
    Anderson, Dr. Jim, Associate Professor, Columbia Basin 
      Research, University of Washington, Seattle, Washington....    84
        Prepared statement of....................................    86
    Bogert, Michael, Counsel to Governor Kempthorne, Boise, Idaho   113
        Prepared Statement of....................................   116
    Hagerty, Dean, Commissioner and President, Public Utility 
      District of Grant County, Ephrata, Washington..............   132
        Prepared statement of....................................   134
    Ilgenfritz, Ric, Columbia Basin Coordinator, National Marine 
      Fisheries Service, NOAA....................................   137
        Prepared statement of....................................   140
    Johansen, Judith, Administrator, Bonneville Power Authority, 
      Portland, Oregon...........................................    49
        Prepared statement of....................................    51
    Mantua, Dr. Nathan, Associate Professor of Atmospheric 
      Science, Joint Institute for the Study of Atmosphere & 
      Oceans, University of Washington, Seattle, Washington......    73
        Prepared statement of....................................    75
    Minthorn, Antone, Chairman, Board of Trustees, Confederated 
      Tribes of the Umatilla Indian Reservation, Portland, Oregon   182
        Prepared statement of....................................   185
    Mogren, Col. Eric, Deputy Commander, Northwestern Division, 
      U.S. Army Corps of Engineers, Portland, Oregon.............    59
        Prepared statement of....................................    61
    Morton, Hon. Bob, State Senator, Washington State Senate.....    21
        Prepared statement of....................................    25
    Roby, Dr. Dan, Assistant Unit Leader, Oregon Fish and 
      Wildlife Cooperative Unit, Oregon State University, 
      Department of Fisheries and Wildlife, Corvallis, Oregon....   125
        Prepared statement of....................................   128
    Skinner, Michael K., Director, Center of Reproductive 
      Biology, Washington State University, Pullman, Washington..   169
        Prepared statement of....................................   172
    Swartz, Don, Science and Policy Advisor, Northwest 
      Sportfishing Industries Association, Portland, Oregon......   181

 
    HYDROPOWER, RIVER MANAGEMENT, AND SALMON RECOVERY ISSUES ON THE 
                          COLUMBIA/SNAKE RIVER

                              ----------                              


                        THURSDAY, APRIL 27, 2000

                  House of Representatives,
                                    Committee on Resources,
                                                 Pasco, Washington.
    The Committee met, pursuant to notice, at 10 a.m., in the 
Theatre, Columbia Basin College, 2600 N. 20th Avenue, Pasco, 
Washington, Hon. Helen Chenoweth-Hage presiding.
    Mrs. Chenoweth-Hage. The hearing will come to order. Can 
you hear me back there? Is this microphone picking up our 
voices? It's not. Well, we'll have to wait.
    OK, I guess we're ready. I want to thank all of you for 
joining us here today for this Congressional Hearing. 
Congressman, Don Young, the Chairman of the Resources 
Committee, has sent the entire Committee out, absent Don Young, 
but we are here today and there is a very, very important issue 
that we are going to be discussing today.
    I do want to thank Congressman Hastings for inviting us 
into his District. As we traveled in last night I was just 
amazed at the beauty and productivity of this area, and it's 
quite amazing the development that has occurred here and it's 
quite beautiful and very, very productive.
    I also want to thank Congressman George Nethercutt for his 
joining us today. This issue is exceedingly important to these 
two gentlemen and they have been stellar in their leadership on 
making sure that we maintain the proper kind of control on our 
Snake River and our Columbia River.
    I am very, very happy to welcome my colleague from Idaho, 
Mike Simpson, who is a member of not only the Resources 
Committee but also the Water and Power Subcommittee and we join 
each other in sitting on that Committee. I think we all 
expected John Doolittle, who is the Chair of the Water and 
Power Subcommittee to be here today, but due to a death in the 
immediate family Congressman Doolittle is unable to join us 
today and we certainly extend to him our condolences and our 
best wishes to Mr. Doolittle and his family.
    [The prepared statement of Mr. Doolittle follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.002
    
    [GRAPHIC] [TIFF OMITTED] T8012.003
    
     OPENING STATEMENT OF THE HON. HELEN CHENOWETH-HAGE, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF IDAHO

    Mrs. Chenoweth-Hage. We are here today in the Tri-City area 
to hear testimony about an issue that could very well determine 
the future of this lush valley and many other such areas up and 
down the Columbia and Snake Rivers. That issue is the recovery 
of the salmon. The agency in charge of this effort, The 
National Marine Fisheries Service, is on the verge of issuing a 
plan that will have major implications for the States of Idaho, 
Washington and Oregon.
    Today, we as Congress, are asserting our critical role in 
this process. These not decisions that should be made without 
the awareness and the actions of Congress.
    As we approach this issue we must first determine whether 
the focus is truly on the salmon or some other agenda. I firmly 
believe that when the true focus is on the salmon the battle 
will be mostly won. The science does exist showing all of the 
factors detrimental to the fish, some which are caused by man 
and some which are nature's fault, and realistic and efficient 
solutions to these problems are available if we only choose to 
use them. Instead, those who have a different agenda other than 
saving salmon hijacked these issues. Rather than hone in on the 
real problems of salmon decline and real solutions to recovery 
of that species, these groups have instead sought to fulfill 
their own purposes, whether it be returning the River system to 
its pre-Columbian condition or thriving on the cash cow of 
resource and grant dollars that depend on the problem really 
never being solved.
    Now, make no mistake about it, this is an unrealistic 
unachievable and costly goal that is causing economic and 
ecological confusion, harming not only our economy and not laws 
and but the salmon as well.
    While billions of dollars have been diverted to endless 
studies on highly experimental measures, such as flow 
augmentation and non-starters, such as dam breaching doable 
measures such as predator and harvest controls, innovate fish 
green devices and even modification to the dams remains on the 
shelf gathering dust.
    Today, we hope to win back this issue, steer it back on the 
course that it belongs; that is, which is to recover the 
species while at the same time respecting the laws already in 
place and the way of life that has made spectacular 
agricultural valleys such as this one prosper so well.
    We will be hearing from witnesses, both in and outside the 
Federal agencies about all of the factors affecting salmon and 
what can be done in the short term to deal with these factors. 
We will be examining the process the agencies are using to 
determine salmon recovery policy.
    I would like to make a special note of a witness here today 
from my State of Idaho, Michael Bogart, who is representing 
Governor Kempthorn. Mr. Bogart will be present perfect example 
of what is wrong with current salmon policy. Idaho, our State, 
is being asked to make tremendous sacrifices at immense 
financial cost, even though the actual biological conditions in 
the State have little to do with the salmon problems.
    Farmers well into the upper Snake River valley, hundreds of 
miles away from salmon habitat are being asked to give up water 
that adds virtually no real scientific value to the recovery 
effort, and at the same time real problems, such as the taking 
of an estimated 600,000 wild salmon smolts by the terns in the 
Columbia estuaries is being virtually ignored.
    As long an this imbalance of focus persists we will really 
never recover the salmon.
    In closing, before I recognize the other members for their 
statement, I do want to say that Congress John Doolittle and I 
have spoken at length by phone. He does have a statement that 
will available to all of you. It is an exceptionally good 
statement and I would urge you to pick it up and examine it.
    [The prepared statement of Mrs. Chenoweth-Hage follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.004
    
    [GRAPHIC] [TIFF OMITTED] T8012.005
    
    Mrs. Chenoweth-Hage. So with that I would like to recognize 
Mr. Simpson for an opening statement.

      OPENING STATEMENT OF THE HON. MICHAEL K. SIMPSON, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Thank you, Madame Chairman. I appreciate the 
opportunity to be here in Washington and to discuss this issue 
that is going to be obviously very important to the Pacific 
Northwest and extremely important to the State of Idaho and the 
District which I represent, the southeastern portion of the 
State of Idaho.
    Some of the most contentious debates we've had while I have 
served in the State Legislature in Idaho were over the issue of 
water and augmenting flows and the legislature, as most people 
know in the State of Idaho, has approved over the past several 
years additional flow augmentation of 427,000 acre feet, which 
has an impact on irrigated land in southeast Idaho. While that 
ran out last year the legislature again approved an extension 
of that for 1 year.
    Those impacts that flow augmentation have on southeastern 
Idaho the potential of the decisions that are going to be made 
relative to recovery of salmon and how we go about that, have 
an enormous impact in my District on the people of my district 
as well as the entire Pacific Northwest.
    So I am very pleased to be here today to participate in 
this hearing and receive the testimony input from those that 
are going to be presenting their testimony today on this 
critical issue in the Pacific Northwest. Thank you.
    Mrs. Chenoweth-Hage. Thank you Mr. Simpson.
    Mr. Hastings.

OPENING STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Madame Chairwoman. I want to 
welcome all of you on the panel here to my district and I thank 
you for coming. I might add by way of introduction this 
district you're really into health, an apple a day keeps the 
doctor away and we lead the country in apple production, but if 
you are in to what I might say junk food and I don't want to 
say it quite that way.
    Mr. Simpson. Be careful.
    Mr. Hastings. Be careful. We are a major producer of 
processed potatoes in this district, but if you're into the 
higher life we lead the country in production of premium wine 
grapes, not the country but we certainly lead the Nation in the 
quality of wine that's produced in this area. I don't want to 
let that one go.
    If you're really into health food during the season we lead 
the country in production of asparagus, and at the final part 
of the day you want to have a nice cold beer, we lead the 
production in the country of hops, which is an integral part of 
beer, and finally, if you want to cleanse your palate you use 
the mint that is grown in this area in Creme d'Mint or whatever 
you want.
    So welcome to probably the most diverse agricultural area 
save for the central valley of California in the county.
    So I want to thank you for being here. The reason for this 
hearing is to look at really some near-term recovery efforts 
and explore some of the activities that are going on because 
the debate is going on and we will hear later on obviously 
about the dams and maybe some changes in how we should pursue 
that.
    But I have to tell you that I am very troubled by reports 
last week that indicated that the Clinton-Gore Administration 
intervened with the Corps of Engineers on its position in the 
Draft Environmental Impact Statement regarding the four lower 
Snake River dams.
    Instead of recommending additional fish passage 
improvements, it appears that the Corps last fall was compelled 
to issue a draft with no preferred alternative. Now, the stated 
reason for this was to allows for a more comprehensive review 
of the factors in packing fish in the All-H Paper process that 
goes forward, and the idea was to allow that to go forward 
without prejudice, which certainly sounds to me to be a 
reasonable expectation.
    However, I would point out that within this Administration 
that line of thinking apparently did not apply to the U.S. Fish 
and Wildlife Service, which did recommend dam breaching. Now, 
the Senate is already investigating this dilemma and I have 
asked this Committee, as you know, and the Committee on 
Transportation to look into it.
    But either way, I think that what we have to do is look at 
all factors, and I know all the members on this Committee were 
cosponsors of my Concurrent Resolution 63 that passed this 
Committee last July to look into all factors rather than just 
the issue of dam breaching.
    Why ought we to look beyond dams? Well, the practical fact 
is that fish passage improvements and transportation systems 
frankly have worked. And it seems to me we ought to focus on 
different areas. For example, common sense would dictate that 
if we want to increase our fish populations you have to look at 
other areas besides just the dams, and we have to come to grips 
with the fact that it's not only humanity that eats the fish. 
There are others that eat the fish. In fact, in the Corps Draft 
Environmental Statements they said, and I quote,``10 to 30 
percent of a 20 to 30 percent of all potential smolts that 
would otherwise be found below Bonneville dam were consumed by 
birds.'' Yet Corps of Engineers began to remove the colony of 
Caspian Terns that are on Rice Island they were prevented to do 
so by a environmental group through a lawsuit.
    Let's put this into perspective. The Caspian Terns are 
protected under the Migratory Bird Treaty Act, but they are not 
endangered or threatened. At times when Federal agencies are 
telling northwest residents that the Endangered Species Act 
supersedes State water rights and perhaps even their 
constitutional right to private property, shouldn't we at least 
harass a few birds to save an endangered species?
    That hasn't really been addressed, it seems to me when you 
look at the overall scope of what we're all about. I might add, 
too, that hatcheries have been a vital part in this whole 
process. There's been some innovated work that has gone on and 
I think that ought to be pursued.
    Also, when we look at ocean conditions; I think too often 
the ocean is dismissed. I know we're going to have testimony 
regarding that later on, but it seems to me whatever decisions 
we make and not take into the data that we collect on ocean 
conditions make it impossible for us to determine what a proper 
course in the future would be if we don't take that aspect into 
consideration.
    If the area of habitat is a very critical area, I think 
that we ought to look at some local success and local efforts 
that are going on that can, in fact, increase habitat. And I'd 
like to cite just a couple of them.
    First, here within the Tri-Cities, Helen, when you flew 
into the Tri-Cities and, Mike, when you flew in you probably 
saw those ugly levees that were there that were left over from 
the results of the great flood of 1948, but within the 1996 
WRDA Act that I authored was a chance to transfer those lands 
to the area here, and there are certain local agencies that are 
trying to improve the fish habitat utilizing those levees. 
Hopefully, we can have success on that, but this is an example 
of local people getting together to try to come up with 
solutions.
    Second, there are two irrigation districts that right now 
primarily draw their water from the lower Yakima River. I have 
introduced a bill that would allow them to draw the river, draw 
the water out of the Columbia River where there is much, much 
greater flow. This is agreed upon, I might add, by virtually 
everybody in involved. It makes common sense, but I want to 
emphasize this is a decision that could be made at the local 
level given the opportunity to make that decision at the local 
level.
    Finally, there is a proposal from the snake river 
Irrigators, Snake and Columbia River Irrigators. Obviously, 
they have a great deal at stake in this, and they are 
suggesting that rather than just flush water down and there is 
some data that proves that hasn't had fish runs, we ought to 
allow that water to go dams and create power and with the 
excess of that use it for habitat recovery as one example. That 
to me seems like a common sense approach to what we want to do, 
and these are all near-term solutions to what our problem is.
    Finally, maybe what we ought to focus on more than anything 
else is a solution to the problem that is facing us rather than 
just trying to deal with the political issue. I think if you 
drive the decision back here more to people that are involved 
we can arrive at a decision in that regard.
    So Madame Chairwoman, I look forward to the testimony 
that's going to be given from the people. I think we have a 
very good assortment of people on the panels and I look forward 
to their testimony. Thank you.
    [The prepared statement of Mr. Hastings follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.006
    
    [GRAPHIC] [TIFF OMITTED] T8012.007
    
    [GRAPHIC] [TIFF OMITTED] T8012.008
    
    Mrs. Chenoweth-Hage. Thank you, Mr. Hastings.
    Mr. Nethercutt is recognized for 5 minutes.

      OPENING STATEMENT OF THE HON. GEORGE NETHERCUTT, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Nethercutt. Thank you, Madame Chairwoman. We are 
grateful to you and Representative Simpson for coming into our 
State and especially to Eastern Washington. Congressman 
Hastings and I have a great friendship and great interest with 
respect to this issue and I'm especially delighted to be in the 
4th Congressional District, which neighbors the far superior 
5th Congressional District to the east.
    Salmon restoration and the issue of dam removal is a vital 
issue to this region, Congressman Hastings' District and mine, 
most especially in our State.
    I think for so long all of us have sat back and listened to 
the disputes over, do we take out the dams or do we keep the 
dams in, and we need to have that debate most definitely. But 
we also need to think carefully about other options that we all 
have and local efforts that are being undertaken to improve the 
salmon habitat and improve the likely recovery of species that 
are either threatened or endangered.
    I'm glad that this particular hearing will be focused more 
on that, rather than the contentious issue of dam removal, an 
issue that I have spoken out and Congressman Hastings has 
spoken out very forcefully on and we are very much opposed to 
the breaching of the dams in the lower Snake River and in the 
river systems in the west.
    I am especially delighted that these panels have been 
convened today by the Committee. They are excellent panels and 
I'm especially proud of those witnesses from my own district; 
Senator Bob Morton who will testify here in a moment and Dr. 
Mike Skinner from Washington State University and Mike 
Pelissier, who is not here I understand. Also Les Wiggan, 
Commissioner of Whitman County is submitting testimony. Skip 
Meade and others will submit testimony as well while the record 
remains open. We are grateful to have that testimony and that 
information.
    I think it's critically important that we focus, too, on 
what can be done now to make improvements in salmon 
restoration. For members outside our region it's very easy to 
make a decision on whether or not to support dam removal 
without fully understanding the impacts of that decision and 
the efforts being done to restore salmon. That's why I think 
it's so important that we're looking here today and elsewhere 
as we go through this debate on the focus being on what can be 
done, not only from the perspective of Federal agencies and 
tribal interests, but from those people most directly impacted 
in the local communities.
    So I'm hopeful that these discussions and the record that's 
being created will add to the positive solution for salmon 
restoration, and as we also carefully watch what happens on 
this dam removal issue, especially by the Federal agencies who 
have jurisdiction over it.
    There are many folks here today who are working very hard 
to make a difference, no matter how large or how small, in 
helping restore wild salmon runs. In my own district efforts by 
the Walla Walla Conservation district to restore habitat at 
Nine Mile Ranch, is a great project. I commend it to you. I 
look at it and see what they've done and why they're doing it 
and doing it quietly, but it's for a good purpose of restoring 
on the ground salmon runs.
    Planet CPR is an outfit, a localized effort to protect 
storm drains from runoff that could be damaging to salmon. It's 
a small effort but it's a significant effort and it's part of 
this great puzzle that we're trying to put together.
    So I think there are effective pieces of this salmon 
restoration puzzle that can be looked at and appreciated by 
local input. Protecting these runs in my judgment must be based 
not only on the best available science but we must take into 
consideration all the impacts on salmon and the multiple uses 
of this river system.
    We can't destroy river transportation, agricultural and 
recreational industries that have been created over the last 40 
years as we address the solution to fish problems. Again, I 
don't believe dam removal is the silver bullet answer. I won't 
support any proposals from the Appropriations Committee 
standpoint, the Committee on which I serve, that restores 
salmon on the backs of our local people, the people here in 
this region who depend on this system, the agriculture, natural 
resources and the small communities and residences of Eastern 
Washington and my district in particular.
    So we convened a group of activists in the 5th District to 
talk about this and look at small steps that we might able to 
take on a proactive basis, not just be against dam removal but 
to look at what we can do locally to try to improve the 
situation, and that's going to yield, I think, very, very 
positive results.
    So we are making progress in respect to local input and 
that must be considered by the Federal agencies as they 
struggle with this issue as well. Perhaps the most 
environmentally sound solution to this, if you look at the 
broad environmental solution, is to keep these dams in place 
because we have to look at the consequences of removing those 
dams on the environment.
    The evidence I've seen is that 700,000 trucks transporting 
our commodities of wheat from Eastern Washington to market 
would have to traverse our highway systems that are inadequate 
to provide that transportation. What happens with all the smoke 
and vehicle emissions that go into the air from 700,000 trucks 
a year as opposed to the clean renewable resource that comes 
from the river barge transportation system?
    The loss of our power resources on the dam, although 
they're relatively small, they are still critically important. 
We're facing gas price increases and fossil fuel energy 
shortages and yet we are thinking or considering getting rid of 
the most clean and renewable resource that we have for power 
generation.
    I thank you, Madame Chairwoman, for the opportunity to 
speak here and be participant in this hearing and I welcome the 
testimony.
    [The prepared statement of Mr. Nethercutt follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.009
    
    [GRAPHIC] [TIFF OMITTED] T8012.010
    
    [GRAPHIC] [TIFF OMITTED] T8012.011
    
    [GRAPHIC] [TIFF OMITTED] T8012.012
    
    [GRAPHIC] [TIFF OMITTED] T8012.013
    
    Mrs. Chenoweth-Hage. Thank you, Congressman Nethercutt, and 
now it's my privilege to be able to introduce our first panel; 
the Honorable Bob Morton, State Senator, Washington State 
Senate, Olympia, Washington; Mrs. Judith Johansen, 
Administrator, Bonneville Power Authority, Portland, Oregon and 
Seattle, Washington; Colonel Eric Mogren, Deputy Commander, 
Northwest Division, United States Army Corps of Engineers, 
Portland, Oregon; Dr. Nathan Mantua, Associate Professor of 
Atmospheric Science, Joint Institute for the Study of 
Atmosphere and Oceans, University of Washington in Seattle, 
Washington; and Dr. Jim Anderson, Associate Professor, Columbia 
Basin Research, University of Washington in Seattle, 
Washington.
    As customary of this Subcommittee to place all witnesses 
under the oath I would like to ask this panel if they would 
stand and raise their right hand to the square.
    Do you promise and affirm under the penalty of perjury that 
you will tell the truth, the whole truth and nothing but the 
truth so help you God?
    Panel. I do.
    Mrs. Chenoweth-Hage. Thank you. Senator Morton, I 
understand that you have, as part of your testimony, you have 
brought a film that you would like to show; is that correct?
    Mr. Morton. That's correct.
    Mrs. Chenoweth-Hage. Would you like to introduce the film?
    Mr. Morton. Thank you, Chairwoman, and thank you for the 
rest of you being here. Go ahead. In the interest of time let's 
get started then. This is a videotape that we've taken, and the 
Congressmen when I was in Washington DC asked me if we could 
display it.
    Mrs. Chenoweth-Hage. Thank you, Senator Morton. Before 
you're recognized for your oral testimony I do want to remind 
the witnesses of some of the Committee rules. There's a bank of 
lights in front of you. I view them like traffic lights. Green 
means go and yellow means wind up or step on the gas, I guess, 
and red means stop. So we are under a time constraint and the 
hearing is just going to go right on through until we've 
finished. So, Senator Morton, you're recognized for your 
testimony.

 STATEMENT OF HON. BOB MORTON, STATE SENATOR, WASHINGTON STATE 
                             SENATE

    Mr. Morton. Thank you very much, Madame Chairwoman, and 
again thank you for the others for being here. It's a delight 
to share with my two Congressmen for my district encompasses a 
great portion of both of theirs.
    This is the packet that I will be referring for you who are 
on the Committee. This is the handout here for the general 
public that's up here on the floor, which is basically the same 
material and they can pick that up later. I also have before 
you a three-ring notebook that I put together which I will not 
testify on. That's merely information I had in my files 
pertaining to the dams. I thought that might be helpful.
    I'm just a little farm boy and so I would like to take you 
on a little journey. I'd like to talk about the salmon, per se. 
Let's go back to 1994, and we had two proud salmon go way up in 
my district and Doc Hastings district up into the upper Methow. 
There they laid their eggs, they fertilized those eggs and the 
next spring.
    Let's use one as an example, Jack was hatched. Jack the 
salmon was hatched. And he started his journey from the 
hatchery. From the hatchery, this is important down the Methow 
River. And he went down and he tumbled over the first dam and 
there he ended up in the pool behind the Rocky Reach Dam, and 
there he met Jill and Jill had come down from the Antiach 
(phonics) Hatchery and the two of them started their journey 
down the mighty Columbia River.
    They tumbled over or went through perhaps the turbines of 
nine dams. Finally, they reached the salt waters of the 
Pacific, 515 miles they traveled as just little guys. 
Fortunately for them they arrived there at night, and the key 
being at night they were able to navigate past Rice Island, 
that was referred to by Congressman Nethercutt, where the birds 
could not get at them in the night. They went out into the 
mighty Pacific Ocean, and as they turned they were able to 
escape from the seals and the sea lions, and they started up 
the coast on the arch of the salmon.
    As they made their way up the coast of Washington, the 
coast of British Columbia, the coast of Alaska, and finally on 
down the Aleutian chain growing as they went and they arrived 
in the far eastern area of the Korean and Japanese waters.
    By this time it was probably about 1995 '96, 1997, and they 
were about half grown, delicious at this time, and their 
comrades were caught in the 30-mile long nets that are there in 
that area, which we have tried to do something about but which 
our coast guard still has information that those 30-mile long 
nets exist.
    Some way they navigated those and they started the return 
back as nature beckoned them to go back to their spawning area. 
We're now in 1995, 1996, maybe even 1997, and they go back up 
the coastal area of Alaska, past the sport fishermen, past the 
commercial fishermen there. They escape all of this and they 
arrive back down again at the mouth of the Columbia, having 
come down the coastal waters of British Columbia and 
Washington.
    Here, again, they have to navigate somewhere between 400 to 
800 seals and sea lions at the mouth of known predators that 
we're not doing anything about is my point. Then they come up 
back past Rice Island and up the fish ladders of the mighty 
Bonneville, and there from Bonneville to Umatilla they 
encompass in 1998, if they came, on September 2nd, when I flew 
those waters they encompassed 400 tribal nets, perfectly legal, 
according to treaty, according to judicial rulings, perfectly 
legal, 400 nets on both sides of the river approximately 400 
feet long with a mesh of approximately seven inches, sometimes 
now BPA is going to put it out there, I understand, at nine 
inches for experimental reasons.
    Some way they get by those 400 nets. In 1999, on September 
2nd, the same day, the Indians had reduced it to 350 nets. My 
appreciation for them doing that. They continue on. 515 miles 
they have to go over the fish ladders of eight dams and just 
before they get to the ninth dam, a major decision.
    Let's go back to Jack and Jill the fish. Jack turns to Jill 
and says we've traveled all this distance and I understand 
without being too personal that, Chairwoman, you may be 
familiar with this love factor now. They fall in love, and Jack 
says, Come on to my house. You were raised in the Antiact but 
the waters of the Methow are marvelous. Please journey with me 
on up there. We'll find the nice gravels of the Methow and 
we'll be able to make our spawning bed there.
    So they start over the last dam and up over the fish 
ladders and there at Rocky Reach they go into the ponds and the 
channels of our good Washington State biologist.
    Now, what's happened in the meantime? Two things have taken 
place. The Federal Government has said with different rulings 
those salmon that did not return to their waters of origin are 
destroyed.
    Jill, Jill came out of Antiact. She is now going with Jack 
up the Methow, naughty, naughty. She should have stayed in her 
waters of the Antiact. She did not. I say to you, whoa, wait a 
minute. She spent 5 years, 80 percent of her life in the mighty 
Pacific. She returned to the waters of her origin when she came 
to the Columbia River. That's the drainage. Whichever creek she 
went up, I say biologists are being too finicky here, but 
because she came from the Antiact in her spawning years 
hatchery and she's now over the dam (making noises) she is 
destroyed, along with her eggs.
    Now, Jack, Jack remains and what happens to Jack? Uh, oh, 
you spent too much time downstream courting Jill. If you had 
been here last week we were under quota. Now, we're up to our 
quota. I'm sorry, Jack (making noises) and he's destroyed.
    As the film portrays, I'm saying we must stop this. The 
information here--I notice the amber light--I would like you to 
turn to the back of it where I have six suggestions I would 
like to share with you and then I'll conclude, Madame Chair, 
and thank you for the time.
    Number 1, I want to read them so that the public can also 
hear them. They may want to make some comments later.
    1. The Federal Government must enact legislation to 
designate one lead Federal agency for States and other local 
government to contact for providing information for salmonids 
upon written request that we write and ask for. We need one 
agency not conglomerish and goolosh which we now have.
    2. The Federal Government must enact legislation that will 
allow balance in regulating no known salmonid predators 
currently protected by Federal regulations.
    3. Washington, Oregon, Idaho, Montana, California, 
collectively needs to study the high seas. Thank you for being 
here, Dr. Mantua, I'll leave that up to you to cover. I mention 
your studies of the PDO for consideration.
    4. Washington, Oregon, Idaho collectively need to obtain 
core samples, which incidently were done in the early 1990's in 
the upper Columbia when we had a health hazard up there on the 
pollutants coming out of Canada, core samples that will show us 
the bottom of the river of the Snake and the Columbia so we can 
see the strata of what's happened from the bones of the fish 
through the years and also the pollutants. We need those cores. 
I can't locate the ones that were taken now by WSU and Eastern 
Washington. We need new ones for our scientists to do.
    Mrs. Chenoweth-Hage. Senator, I'm going to have to ask to 
you to conclude.
    Mr. Morton. To minimize the harm to listed species of the 
Columbia. This is, let's consider putting back into force the 
fish wheels for our tribal people. Then our scientists and our 
tribes without the nets that damage them will be able to use 
whatever they need for their meat and also be able to use 
scientifically those salmon uninjured and let the rest go on, 
and that all fish finally returning to the fresh waters of the 
State of Washington can go wherever they please to do their 
spawning, rather than be corralled into one riverlet over 
another. Thank you very much.
    [The prepared statement of Mr. Morton follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.014
    
    [GRAPHIC] [TIFF OMITTED] T8012.015
    
    [GRAPHIC] [TIFF OMITTED] T8012.016
    
    [GRAPHIC] [TIFF OMITTED] T8012.017
    
    [GRAPHIC] [TIFF OMITTED] T8012.018
    
    [GRAPHIC] [TIFF OMITTED] T8012.019
    
    [GRAPHIC] [TIFF OMITTED] T8012.020
    
    [GRAPHIC] [TIFF OMITTED] T8012.021
    
    [GRAPHIC] [TIFF OMITTED] T8012.022
    
    [GRAPHIC] [TIFF OMITTED] T8012.023
    
    [GRAPHIC] [TIFF OMITTED] T8012.024
    
    [GRAPHIC] [TIFF OMITTED] T8012.025
    
    [GRAPHIC] [TIFF OMITTED] T8012.026
    
    [GRAPHIC] [TIFF OMITTED] T8012.027
    
    [GRAPHIC] [TIFF OMITTED] T8012.028
    
    [GRAPHIC] [TIFF OMITTED] T8012.029
    
    [GRAPHIC] [TIFF OMITTED] T8012.030
    
    [GRAPHIC] [TIFF OMITTED] T8012.031
    
    [GRAPHIC] [TIFF OMITTED] T8012.032
    
    [GRAPHIC] [TIFF OMITTED] T8012.033
    
    [GRAPHIC] [TIFF OMITTED] T8012.034
    
    [GRAPHIC] [TIFF OMITTED] T8012.035
    
    [GRAPHIC] [TIFF OMITTED] T8012.036
    
    [GRAPHIC] [TIFF OMITTED] T8012.037
    
    Mrs. Chenoweth-Hage. Thank you very much, Senator.
    Mrs. Johansen, you're recognized for testimony for 5 
minutes.

 STATEMENT OF JUDITH JOHANSEN, ADMINISTRATOR, BONNEVILLE POWER 
                  AUTHORITY, PORTLAND, OREGON

    Mrs. Johansen. Thank you, Madame Chair. I'm afraid this is 
a hard act to follow.
    Madame Chair, distinguished members of the Subcommittee, I 
am Judi Johansen, the CEO and Administrator of The Bonneville 
Power Administration. I appreciate this opportunity to appear 
before you today, and I would like to thank you for your 
support and your attention to these critical issues for our 
region.
    Madame Chair, Bonneville and the region want a 
comprehensive, integrated fish plan for the Columbia River 
Basin that can be implemented. We believe that we are coming 
closer to that goal, but the plan has to meet three criteria:
    First of all, as mentioned in many of the members' 
statements it must be scientifically sound. Second it has to 
comply with the legal obligations defined under treaties and 
statutes, not just the treaties of the tribes but also 
international treaties. Thirdly it must have broad regional 
support so that it is truly implementable.
    Our vision for the plan is that it be broad enough to 
encompass not only the listed stocks but also the needs of non-
listed stocks. I believe that we can achieve the twin goals of 
recovery of the weakened stocks and at the same time create 
more financial certainty for this region.
    In my testimony today, I would like to make three points 
about where we're headed with the All-H Approach and where we 
can look forward.
    First of all a durable, unified fish plan should be founded 
on performance-based standards. You've perhaps heard that 
phrase in the last few months. We are pressing for objective 
scientific standards on which our actions can be measured. That 
is something that's been lacking in salmon recovery efforts 
over the past decade.
    Second, my agency, The Bonneville Power Administration, is 
fully committed to funding its share of the fish and wildlife 
program and it's fish and wildlife obligation, we've 
established a financial strategy which takes us to that 
objective.
    Finally, in echoing the comments of the members here today, 
this plan has to be developed in close coordination with the 
States, local governments, and the tribes so that it is truly 
acceptable and achievable in this region.
    In terms of performance standards, let me just say a few 
words. Performance standards are a means for establishing 
levels of survival improvements in each stage of Jack and 
Jill's life. For example, a performance standard could require 
that a certain percentage improvement in juvenile passage be 
required through the hydro system.
    Performance standards are simply good management. They 
create clear objectives and they provide flexibility on the 
part of the local residents and the stewards of the resources 
to define the most efficient and effective means for achieving 
those standards. In other words, they increase accountability.
    For the hydro system, the performance standards create a 
clear yard stick against which to measure accomplishments 
necessary to remove these species from the endangered and 
threatened list. Moreover, I believe these performance 
standards can encourage us to talk about tradeoffs and look for 
the most effective and efficient way to achieve recovery.
    For example, we recently were able to work with the 
National Marine Fisheries Service to revise the spill program 
at the various Federal projects, using a performance standard 
basis. We have reduced spill at some projects where it's been 
acknowledged that the level of spill is killing fish and 
increased spill in some instances at other projects.
    If we stretch our imaginations a little bit, it's possible 
that with the performance standard approach Bonneville could 
fund habitat improvements instead of the hydro system changes 
that others might suggest.
    Turning performance standards into a reality is going to be 
the difficult part, but Federal agencies, working in 
conjunction with the States and with the tribes have been 
trying to hone in on the performance standards concept. I think 
substantial strides have been made in coalescing that concept.
    Let me just quickly go now to Bonneville's funding for 
salmon recovery. Assuming that we develop this regional plan 
that has some sort of consensus, Bonneville is committed to 
funding its share. We have complied with the 1995 Memorandum of 
Agreement and are operating under the recently established fish 
funding principles, which are set forth more specifically in my 
written testimony.
    Finally, I would like to underscore that it is critically 
important to the Federal agencies, especially Bonneville, to 
work closely with the Northwest Power Planning Council to 
assure that we're coordinated with State efforts, and to work 
closely with the tribes to make sure that the Federal agency 
efforts are complimentary to those that are taken by the other 
entities.
    In conclusion, I would like to thank you very much for 
inviting me to testify before the Subcommittee, I look forward 
to working with you in developing this fish recovery plan. I 
believe for the first time we have the chance to have 
accountability and objective measurements that will get us to 
the objectives that we all want and that's more fish in the 
river. Thank you.
    [The prepared statement of Mrs. Johansen follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.039
    
    [GRAPHIC] [TIFF OMITTED] T8012.040
    
    [GRAPHIC] [TIFF OMITTED] T8012.041
    
    [GRAPHIC] [TIFF OMITTED] T8012.042
    
    [GRAPHIC] [TIFF OMITTED] T8012.043
    
    [GRAPHIC] [TIFF OMITTED] T8012.044
    
    [GRAPHIC] [TIFF OMITTED] T8012.045
    
    [GRAPHIC] [TIFF OMITTED] T8012.046
    
    Mrs. Chenoweth-Hage. Thank you very much and the Chair 
recognizes Colonel Mogren for his testimony.

 STATEMENT OF COL. ERIC MOGREN, DEPUTY COMMANDER, NORTHWESTERN 
    DIVISION, U.S. ARMY CORPS OF ENGINEERS, PORTLAND, OREGON

    Colonel Mogren. Before I start, I would like to introduce 
some other members of the Corps that are here today, the panel, 
in your letter of invitation, had requested Mr. Doug Arndt from 
my staff to join us, and Doug is here. We also have Lieutenant 
Colonel William Bulen, the Commander of the Walla Walla 
District. Colonel Bulen is charged with preparing the Snake 
River DEIS. The reason I say this is I listened to your opening 
comments. Clearly you have interests that have gone beyond 
those that were listed in our letter of invitation. So as we 
get into your questions, what I may ask is your indulgence and 
to call on the staff to assist in answering those questions so 
we can give you as complete an answer as we possibly can.
    Madame Chair, members of the Committee, thank you for the 
opportunity to testify today. I am Colonel Eric Mogren, Deputy 
Commander of the Northwestern Division of the U.S. Army Corps 
of Engineers. I will keep my remarks brief and submit a more 
complete written testimony for the record. And this may be a 
little presumptuous, because I do sense your interests have 
shifted somewhat from the letter of invitation, I'll fly by 
those things that were in the letter and get your questions so 
that some of these other things can be answered in perhaps more 
detail.
    Madame Chair, you asked that I address the near-term 
actions for the salmon, Corps study results, the status of the 
juvenile salmon transport program and how the Corps plans to 
use PATH study information. I'll start with near-term actions.
    In the coming years we will continue to augment flows, 
spill for fish and operate the juvenile fish transportation 
program in accordance with applicable biological opinions on 
the Federal Columbia River power system. We will continue to 
make improvements to fish passage facilities including: 
extended-length screens, juvenile fish collection channel 
improvements, improvements to adult passage and additional fish 
passage facilities. We will also continue evaluating surface 
bypass systems and gas supersaturation and improvements in 
turbine passage. Of course, we are in the process of completing 
the lower Snake River feasibility study and phase one of the 
John Day draw-down study.
    The lower Snake Study examines four major alternatives for 
the dams: existing systems, maximum transport, major 
improvements and dam breaching. The draft John Day Phase One 
Study looks at spillway crest and natural river level drawn 
down options, both with and without flood control.
    The Corps released its draft report and based on the 
estimated cost and biological benefits expected of all four 
alternatives, the Corps preliminary recommendation is that no 
further study of the John Day drawdown is warranted.
    Other activities the Corps could take in the near term 
include habitat improvements, such as assisting the fish and 
wildlife service in long-term planning for addressing the 
Caspian Tern problems in the Columbia River estuary in 
improving wetland conditions in the estuary.
    As you may be aware the Corps was prepared to keep the 
Caspian Tern population from nesting on Rice Island this year. 
However, a preliminary injunction has put a halt to that 
effort. We are appealing that injunction and we are hoping to 
have a decision from the court sometime later this week.
    Concerning Corps studies, we continue to fund research and 
fish passage and survival at the dams, surface bypass 
technologies, juvenile fish transportation, in river passage, 
adult fish passage and turbine passage improvements. Based on 
study results we have developed and refined fish passage 
facilities and modified our operations. The significant 
increase in survival rates through the system attests to the 
success of these improvements. For example, research by the 
National Marine Fisheries Service indicates that between 50 and 
60 percent of juvenile fish that migrate in river successfully 
pass the Corps dams on the lower Snake and the Columbia. This 
is up from the 10 to 40 percent survivals we saw back in the 
1960's and the 1970's.
    Turning to the juvenile fish transportation program, since 
1968, the Corps has funded research to find the best methods of 
transporting juvenile salmon and to assess related survival 
levels. We have determined that transported fish do not stray 
any more than non-transported fish and most importantly 
transport returns significantly more fish than non-transport as 
measured by smolt to adult return rates. Our research indicates 
that we get about a two to one ratio of transported fish versus 
in-river fish returns. We also know that 98 percent of the 
transported juvenile fish survive to the release point below 
Bonneville Dam.
    One remaining question is the level of delayed mortality 
for transported and non-transported fish. This is a significant 
factor in determining the overall benefit of transport. 
Research is underway utilizing PIT tag technology to answer 
this critical question. There is much we do not know about 
salmon and steelhead behavior and what affects their survival. 
It is not fully understood why these stocks continue to 
decline. We believe further research is needed to resolve some 
of these key uncertainties.
    Turning to the Committee's question of how current 
transport research information is dealt with in the PATH 
analysis. In its first draft biological appendix to the lower 
Snake River Study, the National Marine Fisheries Service used 
the plan for analyzing and testing hypotheses or PATH. 
Responding to concerns from the Independent Science Advisory 
Board NMFS subsequently introduced an additional tool called 
the umulative Risk Initiative or CRI to analyze the risks of 
extinction and to provide a broader analysis of salmon life 
stages.
    These models build on each other and we looked at NMFS to 
interpret the results. PATH, CRI, as well as additional 
research information will all be used in the biological 
analysis for the final EIS.
    Madame Chair, this concludes my testimony. I look forward 
to your questions and I thank you again for the opportunity to 
be here.
    [The prepared statement of Colonel Mogren follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.047
    
    [GRAPHIC] [TIFF OMITTED] T8012.048
    
    [GRAPHIC] [TIFF OMITTED] T8012.049
    
    [GRAPHIC] [TIFF OMITTED] T8012.050
    
    [GRAPHIC] [TIFF OMITTED] T8012.051
    
    [GRAPHIC] [TIFF OMITTED] T8012.052
    
    [GRAPHIC] [TIFF OMITTED] T8012.053
    
    [GRAPHIC] [TIFF OMITTED] T8012.054
    
    [GRAPHIC] [TIFF OMITTED] T8012.055
    
    [GRAPHIC] [TIFF OMITTED] T8012.056
    
    [GRAPHIC] [TIFF OMITTED] T8012.057
    
    [GRAPHIC] [TIFF OMITTED] T8012.058
    
    Mrs. Chenoweth-Hage. Thank you, Colonel Mogren. The Chair 
recognizes Dr. Mantua.

    STATEMENT OF DR. NATHAN MANTUA, ASSOCIATE PROFESSOR OF 
     ATMOSPHERIC SCIENCE, JOINT INSTITUTE FOR THE STUDY OF 
    ATMOSPHERE & OCEANS, UNIVERSITY OF WASHINGTON, SEATTLE, 
                           WASHINGTON

    Mr. Mantua. Thank you, Madame Chair, and members of the 
Committee, I appreciate the opportunity to testify at this 
hearing today. I am Nathan Mantua. I'm an atmospheric scientist 
at the University of Washington and my studies have focused on 
climate in the Pacific and more recently climate impacts on 
natural resources, including Pacific salmon in the Northwest. 
There will be four things that I want to report on in my 
testimony: First, in the past century coastal ocean habitat in 
the northeast Pacific has been highly variable, and that's also 
true in the broader, open waters of the north Pacific; Second, 
much of the variability is related to the tropical El NinAE6o/
La NinAE6a phenomenon that we hear so much about in the media; 
Third, much of the decade-to-decade variability is related to a 
recently named phenomenon, the Pacific Decadal Oscillation that 
was mentioned in the first testimony; Fourth, the unusually 
warm era that began in 1977 may have ended in 1998. However, a 
lack of understanding the long-term climate cycles bases any 
long-term climate forecasts like those looking 10, 20 to 30 
years in the future, much more on faith than on science.
    Now, I'll read from the summary of my Testimony.
    Though scientists are not certain of all the factors 
controlling salmon marine survival in the Pacific Northwest, 
several ocean-climate events have been linked with fluctuations 
in Northwest salmon health and abundance. These include: El 
NinAE6o/La NinAE6a, the Pacific Decadal Oscillation, the 
atmospheric Aleutian Low, and coastal upwelling. Each of these 
features of the climate system influences the character and 
quality of marine habitat experienced by Pacific salmon.
    Cooler than average coastal ocean temperatures prevailed 
from the mid-1940's through 1976, while relatively warm 
conditions prevailed from 1925 to 1945 and again from 1977 to 
1998. The decades-long climate cycles have been linked with the 
Pacific Decadal Oscillation, which is an especially long-lived 
El NinAE6o-like feature of the Pacific climate. In the past 
century, warm ocean temperature eras coincided with relatively 
poor ocean conditions for most stocks of Pacific salmon in the 
Northwest, while cool ocean temperature eras coincided with 
relatively good ocean conditions for Northwest salmon.
    Pacific climate changes beginning in late 1998, indicate 
that the post-1977 era of unusually warm coastal ocean 
temperatures may have ended. Coincident with the demise of the 
extreme 19970998 El NinAE6o, ocean temperatures all along the 
Pacific coast of North America cooled to near or below average 
values, and this situation has generally persisted to date. 
Recent climate forecasts, largely based on expectations for 
continued but weakening tropical La NinAE6a conditions, 
suggests that these cool ocean temperatures are likely to 
persist at least through the spring and on into the summer of 
2000.
    Beyond the coming summer there are no strong indications 
that there will be major changes in the ocean state. If the 
recent past is a useful guide to the future one might surmise 
that there is a reasonably good chance that cool coastal ocean 
temperatures will persist for the next 20 to 30 years.
    On the other hand, there has been no demonstrated skill in 
North Pacific climate predictions beyond about 1 year windows 
into the future. Thus, a lack of understanding for Pacific long 
lived climate cycles bases 20 to 30 year forecasts more on 
faith than on science.
    With a focus on the next five to 7 years, one may be much 
more confident in predicting that coastal ocean temperatures 
and coastal marine habitat quality will continue varying within 
and between seasons, as well as within and between years.
    It seems that climate insurance for Columbia River salmon 
may be provided by adopting management strategies aimed at 
restoring some of the characteristics possessed by healthy wild 
salmon populations. Although the mechanisms are not completely 
understood, wild salmon evolved behaviors that allowed them to 
persist and thrive under variable ocean conditions. Management 
actions taken to restore some of the wild salmon 
characteristics that have been lost in the past century are 
likely to be fruitful roots for minimizing the negative impacts 
of poor ocean conditions and may also prove beneficial during 
periods of especially good ocean conditions. There is little 
doubt that the ocean environment will continue to vary between 
favorable and unfavorable conditions for Columbia River salmon 
populations, and this is true at both year-to-year and decade-
to-decade time scales. That concludes my testimony.
    [The prepared statement of Mr. Mantua follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.059
    
    [GRAPHIC] [TIFF OMITTED] T8012.060
    
    [GRAPHIC] [TIFF OMITTED] T8012.061
    
    [GRAPHIC] [TIFF OMITTED] T8012.062
    
    [GRAPHIC] [TIFF OMITTED] T8012.063
    
    [GRAPHIC] [TIFF OMITTED] T8012.064
    
    [GRAPHIC] [TIFF OMITTED] T8012.065
    
    [GRAPHIC] [TIFF OMITTED] T8012.066
    
    [GRAPHIC] [TIFF OMITTED] T8012.067
    
    Mrs. Chenoweth-Hage. Thank you, Dr. Mantua.
    Dr. Jim Anderson is recognized for testimony.

 STATEMENT OF DR. JIM ANDERSON, ASSOCIATE PROFESSOR, COLUMBIA 
 BASIN RESEARCH, UNIVERSITY OF WASHINGTON, SEATTLE, WASHINGTON

    Mr. Anderson. Thank you, Madame Chairman. It's an honor to 
be testifying before the Committee. This is an exciting time 
for scientists because we have a great opportunity to be proven 
wrong and scientists always enjoy that. The reasons we are 
being proven wrong is because we use analyses which are often 
out of date, while nature and research continues to go on. Now, 
the recommendations that I'm going to bring forward and how we 
might want to focus things are based on the fact that 
conditions have changed radically in the last year, as Nate 
Mantua has shown.
    Well, things first went wrong in the PATH conclusions which 
were based on data through 1990, concluding that the only way 
to recover the runs was to remove the dams. They also concluded 
there was high mortality through the hydro system. The new 
studies on in-river survival show that high mortality doesn't 
exist and so mortality is happening. A lot of the conclusions 
that have come out of PATH simply don't comport with the 
existing data.
    The cumulative risk initiative of NMFS has also had an 
opportunity to be wrong because they projected that runs are in 
a dire condition based on returns through brood year 1994. As 
we now know the ocean has changed considerably and there are a 
significant number of fish coming back to the river.
    Now, many of the things that both of theses groups have 
done are right, but these elements are important and I think 
they need to be understood as we look for reasons or things to 
do in the near future.
    The most interesting fact I want to bring forward is that 
the fish runs have changed considerably, and I think many 
people are aware of that right now. In this year, we have the 
makings of a run, which is two to three times the 10-year 
average of fish coming back into the Columbia River. Many of 
these fish will travel up into the Snake River system. They are 
different than fish that came back in the 1960's because these 
are mostly hatchery fish, and that's part of the issue that I 
want to bring forward and something that needs to be 
considered.
    The projections for next year's run are truly astronomical 
if we look at the Jack returns this year. The Jack are 
precocious males that come back in the first year in the ocean 
last year they returned at a record level. We had the highest 
run since we've been collecting data in 1977, and right now the 
projection up to today is that the runs are about 10 times 
larger than they were in 1977. There are a lot of Jacks coming 
back, which also suggest there is going to be a lot of fish 
coming back in the next couple of years.
    As we know, the ocean has changed fundamentally and appears 
to be in a better condition. This change will last for a few 
years or it could last for a long time. I hope it's going to 
last 20 years, so I have an opportunity to be wrong. Many 
scientists saying a regime shift has happened.
    Considering that we are all wrong, what do we do, or that 
we are potentially are all wrong, what do we do for the future. 
I have three suggestions. One is we need to separate harvest. 
We need to make sure that the wild fish get up to the spawning 
ground, that they are able to spawn and at the same time we are 
harvesting the hatchery fish. That's not possible right now 
because some of the hatchery fish are not tagged to sepovate 
wild fish a live harvest is needed so we can determine which 
ones to release back into the river.
    Another important factor is to try to improve hatcheries. 
As the runs increase, and we haven't thought about the 
possibility of runs increasing, the hatchery production has 
been increased to compensate for the previous low runs. Now 
that stocks are increasing we might consider cutting back on 
the hatchery production and allowing more of the wild fish to 
use the resources. We also need to look at the genetics of 
these hatchery fish. Maybe some of them can very spawn with the 
wild fish. May others should be removed. In either case we 
should improve the genetic and behavioral qualities of hatchery 
fish. I think there needs to be more emphasis on this.
    The third suggestion I would think we should take a careful 
look at flow augmentation. In some situations I think it does 
no good for the fish. It's often neutral and in other 
conditions I think it's bad for the fish. We recently conducted 
an analysis which indicates that summer flow augmentation from 
the Hell's Canyon complex is actually detrimental because it 
warms the water which can increase the Feeding rate of the 
predators. These are the three suggestions that the region we 
might do in the near future to improve the runs. Thank you.
    [The prepared statement of Mr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.068
    
    [GRAPHIC] [TIFF OMITTED] T8012.069
    
    [GRAPHIC] [TIFF OMITTED] T8012.070
    
    [GRAPHIC] [TIFF OMITTED] T8012.071
    
    [GRAPHIC] [TIFF OMITTED] T8012.072
    
    [GRAPHIC] [TIFF OMITTED] T8012.073
    
    [GRAPHIC] [TIFF OMITTED] T8012.074
    
    [GRAPHIC] [TIFF OMITTED] T8012.075
    
    [GRAPHIC] [TIFF OMITTED] T8012.076
    
    [GRAPHIC] [TIFF OMITTED] T8012.077
    
    Mrs. Chenoweth-Hage. Thank you, Dr. Anderson. I want to 
thank all the witnesses for their testimony, and without 
objection your entire testimonies will be entered into the 
official record, including Senator Morton's notebook here. I 
want to again thank you for your testimony, and I want to 
remind our members that the Committee Rule 2(i) imposes a 5-
minute limit on questions that the members may ask. And so the 
Chair will now recognize members for any questions that they 
may wish to ask the witnesses beginning with Mr. Simpson.
    Mr. Simpson. Thank you, Madame Chairman.
    Ms. Johansen, there has been some concerns raised that the 
Bonneville has not expended the total amount of funds that have 
been allocated under the memorandum of agreement for fish 
funding. In fact, by some estimates up to 185 million dollars 
has not been expended. Why is there such a large sum allowed 
funding not being spent and are there projects out there not 
being funded for fish recovery that these could be funds could 
be spent on.
    Mrs. Johansen. The 180 million dollars that you referred to 
is the difference between what we expected would be 
appropriated by Congress back when the MOA was entered into and 
what Congress really appropriated. Bonneville budgeted the 
repay for a much higher level of principal and interest for 
anticipated Congressional appropriations since we reimburse the 
U.S. Treasury for the power user share of Congressional 
Appropriations provided for the Corps of Engineers and the 
Bureau fish of reclamation projects in the Federal Columbia 
River Power System.
    The 180 million dollars will be carried forward into our 
next rate period and will be made available for our fish and 
wildlife projects, which is our commitment under Memorandum of 
Agreement. More importantly, my concern is that people not be 
fixated on how to spend 180 million dollars, but instead focus 
on how do we develop a sound plan for fish recovery, including 
near term measures. If there are additional near term measures 
that are scientifically sound that run through the appropriate 
scientific review of the Independent Science Review Panel and 
the Power Council's process, and that achieve the objectives 
under The Endangered Species Act, then Bonneville stands 
willing to fund those measures. If necessary, we could reopen 
the allocations in the Memorandum of Agreement but my 
expectation is that we have adequate funds available now to 
handle any additional measures that might be deemed urgent for 
an emergency.
    Mr. Simpson. Colonel Mogren, obviously you have read in the 
papers recently about the decision that was made to not include 
a preferred alternative by Corps, and allegations or the 
implications or whatever that there was influence from the 
Administration in the White House in this decision. Could you 
go through that and tell me how this came about and why there 
will not be a preferred alternative, it's relatively, is it 
not, to do an EIS without creating a preferred alternative?
    Colonel Mogren. That is rare. Let me go back and start. 
What I'll do is I'll carry you through our process that I'm 
personally familiar with, and to speculate on the motives of 
some of the decisions that were made, I'm not sure would be 
appropriate on my part. I would be happy to share with you the 
events that transpired as I participated in them, and as I'm 
aware of them.
    As you know, throughout the process the Corps had planned 
all along to issue a draft EIS with a preferred alternative. We 
had said that in testimony; we had said that throughout the 
region. I believe it was the August or September timeframe, and 
frankly I may ask the staff to help with some of the specific 
dates. The district had started to put together its 
recommendation. As I mentioned before the Walla Walla district 
is charged with putting the draft EIS together, and they had 
started formulating that preferred alternative.
    They had done that. Colonel Bulen had forwarded it to my 
boss, General Strock. Our staff had looked at it. We were not 
in complete agreement with everything that was in that 
document, made some revisions to it in accordance with our 
review process and then forwarded the document up to our 
headquarters. This was all in accordance with our normal 
process for this.
    We had notified the other Federal agencies and this was on 
in early October now. I think we noted it on the 8th. Again, 
I'm not one hundred percent sure of the date because as we had 
talked to the agencies and kept Washington informed, we had 
intended to issue a preferred alternative and one of the steps 
in our process would be to discuss that and go into 
consultation on that with the other Federal agencies in the 
region. We were in the process of setting up a meeting to do 
just that.
    Our document went forward to our headquarters. Sometime 
after the 8th of October, we had received guidance not to 
include a preferred alternative. That guidance originated with 
the Assistant Secretary of the Army for Civil Works, who had 
sent a memo to the Chief of Engineers, General Joe Ballard. 
That was subsequently transmitted to us with guidance from our 
headquarters to go forward without a preferred alternative and 
that's subsequently what we did, we complied with that 
guidance.
    Mr. Simpson. I appreciate that explanation. I understand 
that there are at least several Senate Committees looking into 
this and asking the same kind of questions and they've asked 
for a variety of information. Would you be sure that the same 
information is available to this Committee?
    Colonel Mogren. I will certainly do that.
    Mr. Simpson. I appreciate that very much. Let me ask one 
more question of Dr. Anderson. Given your testimony I'm not 
sure, I assume that you believe that the PATH decision process 
and the CRI is not adequate in terms of making future critical 
decisions on this; is that an accurate statement?
    Mr. Anderson. That's true. I think the new information on 
the ocean and fish causes the predictions from those two 
analyses to be inaccurate and misleading.
    Mr. Simpson. Thank you. Thank you, Madame Chairman.
    Mrs. Chenoweth-Hage. Thank you. The Chair recognizes Mr. 
Hastings.
    Mr. Hastings. Thank you, Madame Chairman. I appreciate it. 
Colonel Mogren, let me just followup because my colleague from 
Idaho asked a question that I wanted to ask. I wanted to kind 
of tie this down a bit. You're stationed where?
    Colonel Mogren. I'm in Portland.
    Mr. Hastings. Portland, OK, and you were involved in this 
process last fall?
    Colonel Mogren. Yes.
    Mr. Hastings. OK, from the Portland standpoint working 
from?
    Colonel Mogren. From the division headquarters; yes.
    Mr. Hastings. Your recommendation as it had left your 
office going to Washington DC was that you would come up with a 
preferred alternative?
    Colonel Mogren. Well, the recommendation that went forward 
contained our proposed preferred alternative.
    Mr. Hastings. So I say you were to recommend the preferred 
alternative?
    Colonel Mogren. Yes.
    Mr. Hastings. Which was that breaching should not be an 
option?
    Colonel Mogren. Walla Walla District had proposed our 
alternative three, which was major system improvements with 
maximum barging. My staff looked at that and a briefing from 
the National Marine Fisheries Service on transport which had 
indicated to us in terms of recovery that we may have gotten 
about all that we were going to get out of transport. So 
whereas the transport program was vital to the survival of fish 
that we are seeing now increases to that level would only have 
marginal improvements. So rather than supporting the maximum 
transport recommendation, our staff said it might be more 
reasonable to take a flexible approach to assist in monitoring 
in evaluation efforts to get to the question of delayed 
mortality, for example.
    The other point that we are not in complete agreement with 
was a fairly definitive recommendation from the district for 
non-breaching, and that was based largely on the uncertainty of 
the science at that point in time. I want to emphasize we were 
talking about the August, September, early October timeframe.
    That same uncertainty in our view probably mitigated 
against such a definitive statement. So our proposal that went 
forward called for not breaching, not at this point in time, 
and there may be some point in the as the science evolved and 
matured that may, in fact, be required.
    Mr. Hastings. It's safe to say that your preferred 
alternative, knowing that anything is on the table, was not to 
breach and you had some other alternatives to enhance fish 
passage and so forth; is that right.
    Colonel Mogren. That's right.
    Mr. Hastings. So when it got up to the level in Washington 
DC, that decision was made and you weren't involved in that 
process at all?
    Colonel Mogren. No, no, other than I went up to my 
headquarters and again in accordance with our process and 
briefed our staff on where we were. Some of staff that were in 
the staff in the room with us were part of that, made sure the 
staff was aware of that and then there was a policy review 
process that we go through with our normal EIS's. As I 
indicated subsequently we had the guidance not to use it.
    Mr. Hastings. You had to follow orders, and I respect that. 
So the inquiries from the Senate presumably will be focused not 
on your level but at higher level then, is that a good 
presumption?
    Colonel Mogren. Sir, I don't know. I assume so, but I don't 
know.
    Mr. Hastings. I won't put words in your mouth on that. OK, 
thank you, Colonel Mogren. I appreciate that.
    Senator Morton, you gave us a very interesting handout 
here. On page 12, you have and this is nothing do with hatchery 
fish. It's a very interesting water flow with fish runs 
measurement at Astoria that you comply with figures from the 
U.S. Geological Survey and the Corps of Engineers and so forth 
indicating that low flows is where your highest fish runs are 
historically and the converse is true.
    Could you elaborate on that and if either one of you would 
like to pick up on that, if you haven't seen that chart it's in 
Senator Morton's handout on page 12.
    Senator Morton, let me start with you.
    Senator Morton. Thank you, Congressman. Yes, the lower 
graph portion on the second page, both pages have to be studied 
together, and it has to be studied. It starts in 1938. We went 
back that far when we have these figures. We only went up or 
were able to go up to 1986 because of the data not being 
available at Astoria where the gauging station was eliminated. 
So in looking at both pages, yes, what you analyzed is correct. 
It's very interesting that during the low flows of the Columbia 
River were the highest salmon runs, and the inverse is also 
true, that during the highest flows we had the lowest runs. I'm 
not a biologist. We just analyzed that. It came out as we 
looked at the figures and data, so we printed it up.
    Mr. Hastings. I know Dr. Anderson and Dr. Mantua, you 
haven't had a chance to look at that at all.
    Mr. Mantua. No, I have not had a chance to look at this 
particular graphic or table, but previous work that has been 
done tends to support just the opposite conclusion: that during 
high flow years in the Columbia system and throughout streams 
in the northwest, this is integrated over what we call the 
water year, the month of October to the following September so 
it captures both snow melt accumulation and melt season.
    If you look at gauge flows on the Dalles, which captures 
most of the Columbia Basin, you see that that's well correlated 
with cold ocean conditions and good ocean habitat that we have 
associated with these climate cycles. So, in fact, there is 
some interaction going on both in the river and in the ocean 
that is connected to the same climate pattern, the Pacific 
Decadel Oscillation, changes in the wintertime circulation, and 
most of the work that has been done in that area that I'm aware 
of and that I've participated in suggests that heavy snow pack, 
high stream flows, cold ocean temperatures all go together with 
the productive years.
    On the other hand, low flows, low snow pack, mild winter 
temperature and warm ocean conditions have gone with poor 
production. So it's actually contrary to the conclusions from 
this graphic.
    Mr. Hastings. Thank you very much.
    Mrs. Chenoweth-Hage. The Chair would recognize Senator 
Morton for a response for 1 minute.
    Senator Morton. I think it would be very helpful if the 
good doctor could use the information. We didn't have the time, 
Doctor, to go down through month by month. I think that would 
reveal even more if we do as you're indicating seasonally, at 
least for the four seasons and/or month by month. We just 
printed the data as it was revealed to us.
    Mrs. Chenoweth-Hage. Dr. Mantua and Senator Morton, this 
information is quite startling and the sources are from the 
USGF and U.S. Army Corps of Engineers and at first glance it's 
hard to tell how it could be wrong. I wonder if the two of you 
could work together and send the subsequent report to the 
Committee? Would you do that? Thank you very much.
    Chair recognizes Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Madame Chairman. Colonel Mogren, 
what is the date, sir, if you can recall that you were notified 
of the decision that altered the recommendation which left your 
office and the Walla Walla district office for the east? Do you 
remember when that came back to you and you discovered that 
this preferred alternative was to be removed?
    Colonel Mogren. It was mid-October.
    Mr. Arndt. 8 October.
    Colonel Mogren. I know our note went off and we received 
verbal guidance on the 8th of October and it was followed up in 
writing I believe a week or so later. I don't recall the exact 
date.
    Mr. Nethercutt. The issuance then of the Corps 
recommendations or conclusions without a recommendation, so to 
speak, what was the date of that issuance?
    Colonel Mogren. Again, I need to refer to Mr. Arndt. 
Incidently, those dates obviously are in the documents that Mr. 
Hastings has asked for. So if we can't satisfy this question 
here, we would be happy to submit that for the record.
    Mr. Nethercutt. That's fine.
    Colonel Mogren. Do you remember the dates of the documents 
of the Walla Walla recommendation, our recommendation, and the 
respond memo from headquarters off the top of your head? Sir, 
we'll have to submit it. Walla Walla District recommendation--
October 14, 1999 Northwestern Division recommendation to 
Headquarters--October 18, 1999 Headquarters response memo--
November 2, 1999.
    Mr. Nethercutt. That's fine. I'm not trying to test your 
memory. I'm trying to get a sense of the gap in time from when 
this decision may have been made, and I'm sure that the Senate 
and the House will complete the investigations to decide who 
did what, when and to whom.
    I appreciate the work of the Walla Walla district office 
and the initial recommendations for a preferred alternative. I 
think that's valuable to know that history and the history of 
your office has been what I consider positive in connection 
with trying to solve this problem in a scientific manner as 
opposed to a political fashion. I'm informed that the 
Environmental Protection Agency is in the process of preparing 
a letter concerning the Lower Snake River Environmental Impact 
Statement. I also understand that the letter will notify the 
Corps of an environmentally unsatisfactory rating for non-
breach alternatives in the study. Are you aware of that letter?
    Colonel Mogren. Yes, sir, we are.
    Mr. Nethercutt. Is that rating of environmentally 
unsatisfactory a surprise to you?
    Colonel Mogren. We were surprised by the severity of the 
rating. Back in August EPA had reviewed a preliminary draft 
that was based at that point on the PATH report and it issued 
us a rating of environmental objective EO2, which is less 
severe. We have subsequently been meeting with the 
Environmental Protection Agency to try to resolve some of these 
very important water quality issues. Their concerns are gas 
abatement, their concerns are water temperature and air quality 
issues, I believe Mr. Hastings referred to earlier in his 
comment were also part of this.
    During the course of those negotiations and discussions 
there was nothing that came up that was going to indicate in 
our view that a more severe rating such as unsatisfactory was 
forthcoming. In fact, we did not know that until the regional 
administrator, Mr. Clark, had given a call to our office and 
indicated that this was forthcoming.
    Mr. Nethercutt. When will that letter be available for 
review?
    Colonel Mogren. I don't know. I believe EPA is going to 
sign that this week. So I would assume later this week but 
again I don't know.
    Mr. Nethercutt. I am wondering what impact the EPA letter 
whenever it's received and revealed and issued for review, what 
impact will that have on your process and your recommendation 
of an alternative and the activities that are continuing on an 
ongoing basis? My concern is that the likelihood may be higher 
now that this is a political determination from the EPA, as 
well as from Corps of Engineers, in my humble opinion, and that 
casts in doubt the question of whether you will be able to, you 
the Corps, will be able to issue a final recommendation and 
conclusion based on sound science as opposed to political 
science and I hate to have that definition muddled as we know 
it. I hope you get my point.
    Can you assure us that you are going to do your best, at 
least at your level, at the Walla Walla office district level 
to make sure that this is not a political decision that this is 
a sound science based decision, even with EPA involved given 
the surprise that apparently is coming at you with respect to 
this letter and the more severe determination they have 
apparently made?
    Colonel Mogren. Sir, just to go back to an earlier comment 
I made in response to one of the earlier questions. I would 
prefer not speculate or comment on the motives behind any of 
the actions ongoing. With regard to your specific question 
about the impact on the process, we have received almost 90,000 
comments. In fact, it was 90,000 last week. My guess is it's 
gone up since then regarding this issue and the EPA is one of 
those 90,000. Clearly, it is very important. We are dealing 
with the Clean Water Act and this is not something that the 
Corps takes lightly.
    Clearly, there's direct implications on water quality 
imposed by the Clean Water Act, and we are not taking those 
issues lightly. We will address those issues fully and 
completely in our EIS.
    One of the EPA's criticisms was that we do really give this 
due weight in terms of discussion and evaluation in the report. 
One thing we've committed to do is bring that information 
forthcoming so anybody who reads this report has the benefit of 
that analysis.
    Mr. Nethercutt. Did the recommendation come from that 
Washington DC office with respect to this environmental 
consideration or did it come from the regional office or the 
local office, or where did it come from?
    Colonel Mogren. It is my understanding it will be signed by 
Mr. Clark, the regional administrator. So I assume it came from 
his office. Again, I don't really know that. I assume that's 
where it's coming from.
    Again, going back to process, we have already met with EPA 
this last week and we've agreed to some procedures to get to 
some of these issues that are in contention, such as the 
impacts of the dams on water temperatures, such as what can we 
do about dissolved gas.
    I want to emphasize that the EPA and the Corps are working 
very strongly to try to resolve some of these issues, but there 
are some fundamental disagreements here. One of the issues, of 
course, is that from a biological standpoint with dissolved 
gas, the State of, I don't mean to isolate anybody from the 
State of Washington up here but the State of Washington has 
routinely waived the gas standard during fish passage season up 
to 120 percent level, which National Marine Fisheries 
indicates, you know, the Federal scientists indicate it's safe 
for juvenile salmon bypass. An absolute standard for the water 
quality is 110 percent. So what we have is a conflict between 
the standards of the Clean Water Act and the standards from the 
ESA as expressed as biological opinion that we operate to. I'm 
not sure what the resolution to that is.
    I guess my final point I would make, sir, is to go to your 
point. What the Corps has always seen as its role in this whole 
process is to provide the best economic and scientific data 
that we can put together from the broadest number of sources, 
have as open a process as we can and to render a recommendation 
that will inform this process. I think the ultimate decision on 
this is going to be a political decision because you're 
balancing some very strongly held and competing values out here 
and that's what you guys get paid to do. What I get paid to do 
is inform that through whatever analysis and so on and data and 
information that we can collect and put together and provide to 
you.
    Mr. Hastings. Madame Chairman, could I ask one question?
    Mrs. Chenoweth-Hage. Mr. Hastings.
    Mr. Hastings. Thank you. I just wanted to followup where 
you said Washington was waiving the rules regarding the level 
of 120. Isn't that because that's where the dams are and isn't 
that because there are people that are saying you need more 
flow. If you are going to have more flow you have release more 
water over the dams and therefore you are going to have more 
super saturation? It seems to me there is a conflict based in 
that statement from those that are involved in this.
    Colonel Mogren. You've hit it on the head, the conflict 
between the Clean Water Act requirements and the ESA Biological 
Opinion requirements. The 1995 Biological Opinion requires 
spill, under set conditions, requires spill to help fish 
bypass. That pushes your dissolved gas rate at the dams at 
which the spill occurs.
    Mr. Hastings. Which are detrimental to fish passage; is 
that correct?
    Colonel Mogren. I'm sorry?
    Mr. Hastings. Which are detrimental to the fish that get 
caught up in that super saturation; is that correct?
    Colonel Mogren. Well, right, presumably above a certain 
level; correct.
    Mr. Hastings. I won't ask you to draw his conclusion, but 
it seems to me we are really in conflict because it seems to me 
most of the discussion has been on more flow augmentation, more 
water is what it is. So I just want to make that point because 
you made the point that these things are waived and yet we seem 
to be fighting ourselves on the back side.
    We are not focusing on the impact on the super saturation.
    Mr. Hastings. Thank you. Thank you, Madame Chairman, I 
appreciate the consideration.
    Mrs. Chenoweth-Hage. Thank you, Mr. Hastings. I want to ask 
Senator Morgon in your amendment to your testimony, on page 
one, you quote Chief Spokane Gerry from the Congressional 
Record in 1877, on this page, at the very bottom. Did you 
retrieve that quote from the Congressional Record yourself?
    Senator Morton. Madame Chair, on page 14 it's elaborated on 
further in the Congressional Record and the State of the State 
Message by Governor John Rankin Rogers in 1899. Those are both 
elaborated on on page 14.
    Mrs. Chenoweth-Hage. Thank you, Senator. I wanted to ask 
Dr. Mantua, have you seen this quote from Chief Spokane Gerry 
in 1877? That quote is, ``My people have not be able to lay in 
stock enough of salmon for their winter food.'' it's very 
interesting. Obviously, this came from the Congressional 
Record. Do we have climate studies that go back that far that 
can show this 30-year cycle that you testified to, Doctor?
    Mr. Mantua. We don't have very good ones but we have flow 
records from the Columbia River that date back to 1878, and 
that's one the most reliable and long-term direct measurements 
we have in the region. So we can't get to 1877. Of course, we 
do have excellent fishery records reconstructed from cannery 
pack that date back to the same time period. So it would be 
very important to include that information when you evaluate a 
statement like this. There are other sources of climate 
information, like tree rings that people that I work with are 
actively working on to try to reconstruct past climate in the 
Northwest and we're hosting a workshop next week in Seattle to 
get at issues like this, what was the climate like prior to 
direct instrumental measurements.
    Mrs. Chenoweth-Hage. I think it's quite startling to me 
that the Native American were unable to even be able to stock 
in enough salmon for winter because obviously the fish runs 
were down even then and that's long before any dams existed.
    Mr. Mantua. True, but you must consider there was a very 
large lower river commercial fishery developed by that time.
    Mrs. Chenoweth-Hage. In 1877?
    Mr. Mantua. I believe so.
    Mrs. Chenoweth-Hage. That would be interesting to study.
    Dr. Anderson, you testified that the fact that there needs 
to be more genetic studies of these listed stocks of salmon. Is 
there really any difference in the gene pool between the 
hatchery fish and the wild fish? Is there really any 
difference?
    Mr. Anderson. I can't give you an easy answer to that. Some 
of the hatcheries are probably close to the wild stocks and 
some of the hatcheries are very different because of the way 
that fish have been shipped all over the Northwest when the 
hatchery programs were first established.
    I think that's a good question and we should really begin 
to look at endangered species in the hatcheries and in the wild 
and try to sort out what is the difference between these two 
groups can we be a little bit more flexible maybe in how we 
manage both hatcheries and wild fish.
    Mrs. Chenoweth-Hage. But in the Columbia River system is 
there a difference in the gene pool between the hatchery salmon 
and the wild salmon?
    Mr. Anderson. There might be in some cases. I'm not an 
expert in that particular field as far as past.
    Mrs. Chenoweth-Hage. I see. In your testimony you indicated 
that we should harvest the hatchery salmon while letting the 
wild salmon go free. How do you propose that we harvest the 
hatchery salmon? There are methods; life catch methods, fish 
wheels marking all the clipping of fin of all the hatchery 
fish, not using gill nets, having catch and release programs.
    Most of this separation of harvest would have to be done in 
the river, I believe. Right now it's not being done.
    Mrs. Chenoweth-Hage. I want to ask of Ms. Johansen, can you 
explain to us, how the additional 24-hour spill of all the 
dams, except the Dalles, will affect reliable power production 
and reliability as far as energy produced and what is the cost 
of the region of this new spill activity?
    Mrs. Johansen. The most recent spill regimen that my staff 
has discussed with the National Marine Fisheries Service staff 
basically results in the same financial package that we have. 
In other words, there is no change. There was a significant 
reduction of spill at The Dalles and that was countermanded by 
increases at other projects. So, the net effect financially is 
zero.
    However your question is a good and important question. Due 
to several factors, including the derating of the hydro system, 
load growth in the region, and the fact that there has not been 
very much construction of new generation in this region, we 
face a critical reliability issue that we have to deal with 
now. Our studies reveal that if we embark on significant 
further spill on the Columbia, especially down at the projects 
that are closely tied in with the California Intertie that 
further derating could cause reliability problems in not only 
the Northwest but also in California as well. So, in working 
with the National Marine Fisheries Service, we try to make them 
aware of the transmission constraints and make sure that they 
understand where we run into those problems. Reliability is an 
important issue that this region does need to focus on. We've 
stretched the system to it's limits and the flexibility that we 
had even 5 or 10 years ago is gone.
    Mrs. Chenoweth-Hage. Has the BPA analyzed and can you tell 
the Committee where you will be getting other power during 
those high demand peak weeks during August, September even in 
July when you are spilling and yet there's such a high demand 
in the region. What will you supplement the power with?
    Mrs. Johansen. The region is in a load resource deficit. 
Most of that deficit is not on the Federal system, although we 
do have a large share of the deficit. I don't want to 
understate that. The problem is not just on the Federal side, 
but it's also a problem for other utilities. For peak 
operations, if we don't have adequate water to provide or 
adequate resources in the Federal system, we rely on seasonal 
purchases from California. So, the use of the interties is 
quite important to us to meet our peak demand. We also rely on 
power purchases to the extent they're available from Canada 
because Canada has surpluses, but there are transmission 
constraints there, and for future generation construction how 
much of that will Bonneville purchase? We have recently 
concluded, and yesterday I signed the final record of decision 
on our Subscription Strategy, which will require that 
Bonneville add another 1500 to 1700 megawatts of power to 
augment our system so that we can cover all of the demand that 
we've committed to. We are covering that with purchases from 
independent power producers and a mix of utility purchases as 
well.
    Mrs. Chenoweth-Hage. The power produced in California is 
significantly higher than that produced on the Columbia River 
system; is that not true.
    Mrs. Johansen. The cost of power on the West Coast is now 
dictated by a market that has been established as a result of 
deregulation. So, the difference between the cost of market 
power in the Northwest is not that significant versus 
California, and the market price we pay there however, the cost 
of production does vary between the regions and you're correct 
in that.
    Mrs. Chenoweth-Hage. Because the facilities on the Columbia 
are so low cost and meet the demand of the Northwest Power Act 
in having a renewable resource for its fuel source, has the BPA 
analyzed the conflict here that may appear to us to be in the 
Northwest Power Act? The activities from BPA that seem to be 
focusing solely almost in some cases on the salmon and the cost 
of reliable low cost renewable resources seem to be sacrificed.
    Mrs. Johansen. We have quite a significant focus on 
maintaining low cost power. In fact, as I sit before you today 
we are the lowest cost provider save perhaps Idaho Power 
Company in the region. We embarked on significant cost cutting 
in order to establish that position. We have cut over a half 
billion dollars a year from our annual budgets to make sure 
that low cost continues to be provided in this region.
    At the same time, we are making investments in efficiency 
improvements in the Federal hydro system working with the Corps 
and the Bureau through the direct funding agreements. It's 
enabled us to work together to find efficiency improvements in 
the hydro system that we otherwise wouldn't find, We are also 
increasing our transmission rates to enhance the reliability of 
the transmission system, which as I said earlier has been 
stretched to its limits in many instances.
    While I publicly seem to be only addressing fish issues, 
really 99 percent of what I do and what my agency does is try 
to assure transmission reliability since we are the primary 
owner in this region. We also work with the Corps and the 
Bureau to make sure the efficiency improvements are made in the 
hydro system and in working with Energy Northwest on their 
nuclear plant.
    Mrs. Chenoweth-Hage. Thank you. The members have asked for 
a second round of questions and I will recognize them for a 
second round beginning with Mr. Nethercutt.
    Mr. Nethercutt. I want to conclude my questions here in the 
second round by thanking each one of you for your testimony. We 
always get stuck on the 5-minute rule. We love it but we hate 
it because otherwise it would be interminable. We sure thank 
you for your testimony. It's been compelling today and, Madame 
Chairman, we will be able to submit questions for the record, 
perhaps.
    Mrs. Chenoweth-Hage. Yes.
    Mr. Nethercutt. Then with your indulgence if we have 
question we would request that you file answers at your 
earliest convenience.
    Ms. Johansen, I'm interested in your performance standards 
testimony and I think it makes sense. I urge that you think 
carefully about the development of those standards and also 
include a local input to the development of the standards. Is 
that what you had in mind, also?
    Mrs. Johansen. Actually, the performance standards are 
being developed by the National Marine Fisheries Service and 
they will be articulated in their Biological Opinion. The 
Federal agencies have been working with National Marine 
Fisheries Service to develop those standards, but they will 
ultimately be the call of NMFS.
    NMFS intends, or at least it's our understanding that they 
intend, to release a draft Biological Opinion for review by the 
States and tribes around May 22nd. So, that would be an 
opportunity for the State and local governments and other to 
comment on those performance standards. This is the first time 
that we've done this, the region has done this. One of the 
other things that National Marine Fisheries Service is 
contemplating is review of those standards by the National 
Academy of Sciences. So, the intention is to make them as 
credible and relevant as possible.
    Mr. Nethercutt. So there will be an opportunity for public 
comment and for additional local input. The local agriculture 
conservation districts are doing very good work and perhaps 
would want to have input into the establishment of those 
standards. I also was interested in your testimony where you 
indicated that funding habitat improvements makes sense as well 
in the full picture of trying to restore salmon.
    Dr. Skinner, Mike Skinner is going to be testifying here on 
the next panel or the following about the issue of reproductive 
biology as it relates to fish and looking at what they are 
doing and why they are not doing it in connection with this 
whole great problem. I wonder if you or agency would consider 
funding, relative to the money that's been spent thus far on 
habitat conservation and protection and all the expenditures of 
government, the Corps study and so forth for a relative small 
amount of money.
    We can look at the reproductive biology of fish as part of 
the puzzle and solution that we are seeking and for a very 
minimum amount of money and perhaps a limited amount of time 
and we'll hear testimony about that. I'm wondering if BPA would 
consider that as you go through looking at the funding that 
you're involved thus far and funding that you're intending to 
undertake in the future?
    Mrs. Johansen. We will certainly consider that. The process 
that we go through is to work with the Northwest Power Planning 
Council and the Independent Science Review Panel to sort 
through the hundreds of projects that come our way. Certainly, 
we will commit to working with Dr. Skinner to make sure that 
his proposal is described as best it can be as it goes through 
that process.
    Mr. Nethercutt. Thank you very much. Senator Morton, 
Congress help established a fund that goes through the 
Washington State Salmon Recovery Funding Board and I'm 
wondering, sir, whether in your opinion this has been 
successful, what projects have been funded throughout the State 
that you think are valuable?
    Senator Morton. Obviously, the money is valuable to some of 
the projects but not to all. I think a lot of the projects have 
been what I would call minor significance as it pertains to 
habitat. We have habitat, I believe, to a great degree in the 
tributary waters, for example, of the Columbia as well as and 
particularly the Olympic Peninsula and for us to use that money 
in interior culverts, et cetera, I think has been a true waste. 
Basically, that's my opinion on it, but we do have the need for 
the moneys to be used in other areas of the State rather than 
deeply inland but more along the coastal areas and the Columbia 
itself.
    Mr. Nethercutt. Thank you very much to all of you.
    Mr. Hastings. I want to followup on Mrs. Johansen. In your 
written testimony, at bottom of the first page and I'll read it 
here and ask you to respond. In 1992 and 1994, when Pacific 
Northwest salmon and sturgeon were listed as endangered species 
Bonneville's fish and wildlife program expenditures plus the 
financial impacts of changes in hydro power system operations 
increased significantly going from 150 million to over 400 
million dollars a year. These are all, of course, ratepayer 
dollars. There's no tax dollars. There's no tax dollars. These 
are all ratepayer dollars.
    Could you break down that cost? I know a big portion of 
that is it foregone revenues is the way to say it. Could you 
break that down and elaborate on that paragraph?
    Mrs. Johansen. Let me provide clarification. The 430 
million dollars is a budgeted amount and as Congressman Simpson 
pointed out, we have underspent under the MOA because we didn't 
anticipate expenses due to a lower level of Congressional 
appropriations. But, of the 435 million dollars budgeted amount 
that we have grown into, if you will, about 252 million dollars 
is associated with the direct program that we fund for the 
Northwest Power Planning Council. You can break that 252 
million dollars down into about 100 million dollars for the 
North West Power Planning Council's direct Fish and Wildlife 
Program: about 40 million dollars for reimburseable expenses, 
and about $112 million dollars for capital reimbursement for 
the Corps projects. That's the particular area where the 
appropriations didn't come in as robustly as we anticipated.
    The remainder, the roughly 183 million dollars remainder, 
is an expected value of the operational costs that we incur 
either due to foregone revenues or increased power costs to 
shift the water around in order to meet the fish migration as 
opposed to optimizing for power.
    So in any given year that balance, the amount above the 252 
million, could be 200, 300 million or it could be very small 
depending on the water or depending on the market. So it does 
vary year by year, but on average we had planned for and had 
expected about 435 million dollars a year in total for all four 
cost categories under the current regime. Under our new rate 
case which is concluding, and unfortunately I'm in ex parte so 
I can't debate the merits with you, but I can tell you that we 
are increasing the level of funding given the range of 
uncertainty that we see in terms of what our fish and wildlife 
obligations will be. That expected value will go from about 435 
to about 720 million dollars per year.
    Mr. Hastings. Same percentage breakdown in the programs as 
you mentioned here that roughly 252 and the other in foregone 
power would that ratio remain about the same?
    Mrs. Johansen. The ratio remains about the same, but it's 
up, ratcheted up in each instance.
    Mr. Hastings. Right. Prior to the listing in 1992, that 252 
million dollars that you were talking about, I assume those 
programs existed prior to the listing of the salmon and the 
surgeon; is that correct?
    Mrs. Johansen. This predates me, but prior to 1992, we were 
operating under a program, a much more modest North West Power 
Planning Council Program. I believe that the annual program was 
more in the 40 million dollar range. I'll followup with 
specific numbers there. The operations of the hydro system were 
significantly different than we face now. The operation of the 
hydro system as a result of the listings in 1992 has really 
changed the priority from flood control and power, which was 
the case before 1992. Now flood control and fish are the two 
top priorities. The operational regime back then had far more 
modest impact on our lost revenues and our purchased power 
needs.
    Mr. Hastings. Let's put it another way. If we were trying 
to compare apples and apples prior to this and again making the 
broad assumption and that these are--not the foregone power 
cost, I'm just talking about the 252, what figure would equate 
to the 252 prior to the listings?
    Mrs. Johansen. I'll have to get back to you on that. I 
believe it would probably be more in the neighborhood of 
perhaps maybe less than 100 million.
    Mr. Hastings. Less than 100 million.
    Mrs. Johansen. That would be my guess. I want to followup 
with you on a specific breakdown.
    The breakdown follows:

    [GRAPHIC] [TIFF OMITTED] T8012.306
    
    Mr. Hastings. OK, but making the assumption that that's the 
case, 100 million prior to the listing of the species has 
escalated or will escalate to over 500 million dollars that the 
ratepayers are principally paying, there are some Federal 
direct appropriations; is that correct?
    Mrs. Johansen. I believe if we held the ratio of the 
program expenditures to fore gone power revenues the same, the 
top of your range would be about 418 million, and this is all 
ratepayers.
    Mr. Hastings. It's all ratepayers. So all the ratepayers 
here in the Northwest are paying this increased cost because of 
these listings?
    Mrs. Johansen. Yes.
    Mr. Hastings. Thank you very much.
    Mrs. Chenoweth-Hage. Mr. Simpson.
    Mr. Simpson. Just one quick question that came up and I 
don't know who to ask this to actually. I guess I'll ask it to 
you to, Colonel, since in the middle. The debate started a 
little bit ago over whether historically increased flows meant 
more returned salmon or less return salmon, and I guess the 
State of Idaho has been given 427 acre feet and negotiated that 
and authorized it over the last several years to increase flow 
augmentation. Any results of that? We did it as an experimental 
program to see if it would increase the rate of return of 
salmon and flush salmon down the River. Have you seen the 
results of that yet? Have you seen any benefit from that.
    Colonel Mogren. Let me defer that to Mr. Arndt here, and I 
would also ask I believe there's a National Marine Fisheries 
Service panel member coming up in the next panel and he may be 
in a better position to answer that.
    Mrs. Chenoweth-Hage. Mr. Arndt, would you stand and be 
sworn, please? Do you promise and affirm under the penalty of 
perjury that you will tell the truth, the whole truth and 
nothing but the truth?
    Mr. Arndt. As I understand your question there have been a 
demonstrable result in--.
    Mrs. Chenoweth-Hage. Mr. Arndt, I'm sorry to interrupt you. 
Would you please introduce yourself for purposes of the 
recorder.
    Mr. Arndt. Thank you, Madame Chairman. My name is Doug 
Arndt. I'm Chief of the Fish Management Division for the 
Northwestern Division, Corps of Engineers. In response to your 
questions, sir, the data are still coming in on that and as you 
have heard earlier from the panel there seems to be an 
overriding impact of the ocean conditions that may influence 
that.
    I have seen some data that would indicate that the flow 
regimes are probably less significant for spring/summer Chinook 
returns and perhaps more significant for the fall Chinook 
returns. This is captured in some recent information that 
National Marine Fisheries Service has put out. So I assume that 
you'll hear more about that from Ric Illgenfritz, who is on 
your next panel.
    Mr. Simpson. Thank you.
    Mrs. Chenoweth-Hage. Thank you, Mr. Simpson.
    Mr. Arndt, you may want to remain there. I have a question 
for you. If you want to pull your chair around to the side, Mr. 
Arndt. I first have a question for Dr. Anderson.
    Dr. Anderson, can you give me the flows in cubic feet per 
second of the Columbia River, say, at the Dalles Dam and then 
maybe at Bonneville? What is the volume of flow?
    Mr. Anderson. The volume today, I'm not sure. If I could 
look up our web page, I'll give you exact numbers. I think 
using from these tables right here, we have on the order of 
150,000 in a low flow year to three, four, 450,000 cubic feet 
per second in a high flow year. That would be at Bonneville 
Dam. Most of the flows at the Dalles and Bonneville are 
similar.
    Mrs. Chenoweth-Hage. The 427,000 acre feet, how would you 
calibrate that in comparison that Mr. Simpson has talked about 
that Idaho has issued out each year for the last 8 years?
    Mr. Anderson. The flow that's coming out of Idaho and the 
flow augmentation, is that your question?
    Mrs. Chenoweth-Hage. Yes.
    Mr. Anderson. The relationship between the natural flows 
and the flow augmentation is tiny. The flow augmentation from 
Idaho is very, very small. It might be 20 or 30 KCFS, where in 
the spring we might have 200 to 400 KCFS down through the river 
system. We have looked at the possible impacts to that with our 
models and haven't be able to find any significant impacts of 
that flow augmentation.
    Mrs. Chenoweth-Hage. Very interesting. Colonel Mogren, I 
would like to ask your biologist a question. Natural Marine 
Fisheries Service, Mr. Arndt, is proposing to increase spill to 
24 hours a day at all dams except the Dalles. Now, if the 
biological opinion didn't require spill and if the Northwest 
Power Planning Council did not require spill would you as a 
biologist feel that voluntary spill would be justified to save 
the fish? If the intent is to keep fish, migrating juvenile 
fish in the river system, then I personally believe that 
spilling fish is better than putting them through a turbine. If 
one has the option of moving fish most safely through the river 
system that doesn't include keeping them in the river, as you 
heard in our earlier testimony, the current data coming from 
transport would indicate that it would be better to transport 
those fish rather than keeping them in river by spill or by any 
other means.
    Mrs. Chenoweth-Hage. Tell me in your professional opinion 
how you feel about barging? Does it does really work and why if 
it does or doesn't?
    Mr. Arndt. If you look at the data on the returns of fish 
that have been transported versus those that have gone through 
the river system, transport works. It returns significantly 
more fish than if you keep them in the river. Does it work in 
the context of being a silver bullet and restoring the runs 
absent any other type of action, it does not do that. It's one 
very important component of a much broader action plan that 
would be required both in the hydro and outside any other so 
called issues.
    Mrs. Chenoweth-Hage. Thank you very much, Mr. Arndt. I 
wanted to ask Mr. Mantua, it's my understanding that the fish 
returned, the count so far from pit tag count this year 
beginning March through April 20 is 70,331. Last year that 
compared to 6,904. So we have an increase of almost 11 times 
the number of returns with the 10 year average being 23,000, in 
excess of 23,000. As climatologist how do you account for such 
a dramatic return this year as compared to last year when we 
view the climate and the affects on the salmon with such a 
difference in just 1 year?
    Mr. Mantua. I believe there is a great deal of evidence 
showing ocean conditions have improved markedly for many of the 
stocks in the Northwest, that ocean survivals were dismal in 
the early 1990's. I think the number is less than half of 1 
percent for many of the runs in the Columbia River system and 
it's not unheard of to have survivals 10 times that number, 
that could completely account for the reserved increase in 
returns. In places where salmon stocks are in excellent shape 
and in southeast Alaska the numbers as high as 30 percent for 
certain stocks. So it is entirely consistent with vast 
improvement in ocean conditions and ocean habitat.
    Mrs. Chenoweth-Hage. Thank you very much. I just want to 
close and thank you all. I want to thank Senator Morton for the 
film. I think that's very dramatic and certainly left an 
impression on all of us. I agression from your testimony the 
Oregon agencies killed 20,708 salmon in 1998, which could have 
yielded in excess of 48 million eggs. Out of 1 percent return 
we could have seen an excess of 436,000 salmon adults returning 
instead of what we are bragging about today at 70,000. So thank 
you for calling that to the attention of the Committee. I know 
that you have to get back to the very exciting session, and I 
thank you all for being here very much.
    I do want to say to all if you but I wanted to mention to 
the Colonel, we will be sending further questions with regard 
to your draft and the impact of the White House on this. So we 
also want to let you know the record remains open for 30 days. 
Should any of you wish to add anything to your testimony, you 
are welcome to do so. We will be submitting questions in 
addition to those asked in writing. The Committee will send 
them out right away and we hope to have your response within 30 
days.
    Senator Morton and Dr. Mantua, I would appreciate your 
report to the Committee on the USGS and Corps of Engineers 
stats that we saw and even all the vagaries that could go into 
possibly a different conclusion. Would you be able to get it in 
within 30 days.
    Mr. Mantua. Yes.
    Mrs. Chenoweth-Hage. Thank you very much. I want to thank 
these distinguished witnesses for their valuable testimony and 
with that these witnesses are excused and I will call the 
second panel.
    Come to order and please stand and be sworn. Do you promise 
and affirm under penalty of perjury to tell the truth, the 
whole truth, and nothing but the truth, so help you God?
    Panel. I do.
    Mrs. Chenoweth-Hage. I do want to say there are certain 
Committee rules and this is an official Congressional Hearing, 
and Congress has gone to great lengths to bring this hearing to 
this valley because there is an exceedingly important and 
strongly impacting issue. The Chair is very disappointed, very 
unhappy with National Marine Fisheries Service for just now 
bringing us their testimony. The Chair could exclude you from 
testifying. This is ridiculous that you would bring at this 
hour your testimony with this enclosure.
    The rules of the Committee are to have your testimony into 
the Committee a number of days before the hearing, so we can 
all study your testimony so we can be prepared. Now, this is 
the agency that has taken it upon themselves without 
necessarily Congressional authority but with judge made of law 
to bade in the catbird seat on this whole issue. I think it 
demonstrates to us your willingness or lack of willingness to 
work with Congress. This document was issued April 7th. It was 
printed April 10th. You did have time to get it to the 
Committee.
    Mr. Ilgenfritz, I will recognize you for your testimony but 
I will recognize no one else from NFMS. You must be prepared to 
answer the questions from the members, and I want to say on 
behalf of Chairman Don Young that I never want to see this 
happen again. There must be more cooperation from your agency 
with the Congress. With that the chair recognizes Mr. Bogert.

 STATEMENT OF MICHAEL BOGERT, COUNSEL TO GOVERNOR KEMPTHORNE, 
                          BOISE, IDAHO

    Mr. Bogert. Madame Chair, distinguished members of the 
Committee, Representative Simpson, it's good to have a little 
view of home here in Washington State and I'm pleased to be 
able to speak with you today. My name is Michael Bogert. I am 
counsel to Idaho Governor, Dirk Kempthorne. I appreciate the 
opportunity to appear before you today and articulate Governor 
Kempthorne's perspectives on one of the most complex issues of 
the day, salmon recovery in the Pacific Northwest.
    Prior to the time we took office in January 1999, the 
Kempthorne administration has been preparing for the upcoming 
decisions to be made very soon by the Federal agencies. We have 
been preparing for a very compelling reason.
    Idaho stands to lose nothing short of everything in the 
aftermath of salmon recovery debate and perhaps ironically we 
will lose everything with no recovery of the salmon. With this 
perspective in mind, I would like to briefly describe to the 
Committee what we see as our role in recovering the species and 
how we are willing to participate in this process.
    Governor Kempthorne believes that only through a regional 
collaborative effort will there ever be a chance for recovery 
of anadromous fish in Pacific Northwest. Every State in the 
region in all of the stakeholders impacted by the process must 
step forward and contribute.
    No single State can recover the salmon scientifically. No 
single State can solely afford to shoulder a disproportionate 
burden of this process. It will be only through regional 
cooperation and not dictates by the Federal Government for 
there to be a chance to achieve real success in this area.
    The hearing today is about what can be done now in the 
near-term to help the fish and I would like to briefly describe 
Governor Kempthorne's outlook on these issues. The Committee 
has our full testimony, and we would like to have those 
submitted for the records.
    In general, Governor Kempthorne believes that any effective 
program to recover the species must be supported by science. It 
must be politically palatable and it must be economically 
feasible.
    We in Idaho begin our analysis of this approach slightly 
differently than many members of the Committee have seen in the 
past. The Governor has decided to add a fifth H to the 
equation. That H, of course, is humans.
    From our vantage point much of our State's culture and 
economy are at stake in the decision to be made by the Federal 
Government in the coming weeks. Accordingly, Governor 
Kempthorne believes that no singular component of the salmon 
recovery burden should be born on the backs of any single 
stakeholder to the process, including the States.
    Let me give you the most recent example of this problem, 
and as Dr. Roby will describe, it is going on now as we speak. 
United States Army Corps of Engineers recently estimated that 
over 640,000 listed individual salmon and tens of millions of 
hatchery stock are eaten alive at the mouth of the Columbia 
River estuary during the spring migration period. The culprits, 
the world's largest colony of voracious fish-eating Caspian 
terns, who just happen to be nesting on Federally-created Rice 
Island at the time the young salmon are attempting to make 
their way to sea.
    Idaho, as did other stakeholders in this process, 
participated in a collaboration involving the States, Federal 
agencies including the Corps and United States Fish and 
Wildlife Service. This process resulted in a plan that involved 
providing alternative nesting habitat for these birds which 
happen to be protected under the Federal Migratory Bird Treaty 
Act.
    The plan that was developed included a component that 
entailed harassing these birds from the most critical of areas 
where the endangered fish are slaughtered.
    Not surprisingly, a group of environmentalists brought 
lawsuit a few weeks ago and claimed that the Corps had failed 
to comply with the National Environmental Policy Act and asked 
that the harassment strategy be halted immediately.
    Their key piece of evidence? Written comments by the Fish 
and Wildlife Service that science had yet to prove that saving 
640,000 listed individual species had any proven benefit to 
salmon recovery. A Federal judge bought the argument and as we 
speak, endangered fish are now being consumed by non-endangered 
birds and with the willing assistance of the Fish and Wildlife 
Service.
    Members of the Committee, we submit that this is a paradigm 
of dysfunction. As a matter of fundamental science the State of 
Idaho likes its chances in a court of law that a fish eaten 
alive at the mouth of the Columbia estuary will not return to 
our State, but our perspective is even more focused.
    At the time the Fish and Wildlife is telling us that saving 
640,000 listed individual fish will do nothing to recover these 
species, the Federal Government as we speak is assessing how 
much Idaho water is needed to seemingly make fish migration 
easier. The answer to this question in Idaho goes to the very 
life blood of our State's agricultural economy in the upper 
Snake River Basin. Our reaction is how dare, how dare the 
Federal Government tell Idaho and the world that the outright 
slaughter of hundreds of thousand of endangered young salmon in 
the Columbia River estuary will have no impact on this problems 
and then in the same breath tell us that more water from our 
State is needed to get these fish out to sea. We appreciate the 
Committee's brief indulgence for the Governor's moment of 
righteous indignation, notwithstanding the current position of 
fish and wildlife on predator control.
    We shudder to think of what the Federal Government would do 
to the unfortunate soul on a rafting trip who accidently floats 
his boat over a salmon spawning bed during the height of the 
reproductive season.
    Members of the Committee, you have the Governor's 
perspective on this issue as it relates to our view on the 
regional collaborative process, and with that, Madame Chair, I 
conclude my testimony.
    [The prepared statement of Mr. Bogert follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.078
    
    [GRAPHIC] [TIFF OMITTED] T8012.079
    
    [GRAPHIC] [TIFF OMITTED] T8012.080
    
    [GRAPHIC] [TIFF OMITTED] T8012.081
    
    [GRAPHIC] [TIFF OMITTED] T8012.082
    
    [GRAPHIC] [TIFF OMITTED] T8012.083
    
    [GRAPHIC] [TIFF OMITTED] T8012.084
    
    [GRAPHIC] [TIFF OMITTED] T8012.085
    
    [GRAPHIC] [TIFF OMITTED] T8012.086
    
    Mrs. Chenoweth-Hage. Thank you, Mr. Bogert. The Chair 
recognizes Dr. Dan Roby for his testimony.

   STATEMENT OF DR. DAN ROBY, ASSISTANT UNIT LEADER, OREGON 
   COOPERATIVE FISH AND WILDLIFE RESEARCH UNIT, OREGON STATE 
 UNIVERSITY, DEPARTMENT OF FISHERIES AND WILDLIFE, CORVALLIS, 
                             OREGON

    Dr. Roby. Good afternoon, Madame Chair and members of the 
sub-committee. My name is Dan Roby and I am testifying 
regarding the issue of Caspian tern predation on juvenile 
salmonids in the Columbia River estuary. I am an Associate 
Professor in the Department of Fisheries and Wildlife at Oregon 
State University and the Assistant Unit Leader for the Oregon 
Cooperative Fish and Wildlife Research Unit, which is part of 
the U.S. Geological Survey.
    For the last 3 years I have been the Principal Investigator 
for a research project entitled ``Avian Predation on Juvenile 
Salmonids in the lower Columbia River.'' this project was 
initially funded jointly by the U.S. Army Corps of Engineers 
and the Bonneville Power Administration but it is now funded 
solely by BPA.
    The research has been carried out cooperatively by Columbia 
River Inter-Tribal Fish Commission and Oregon State University. 
My colleagues and graduate students; Ken Collis, David Craig, 
Don Lyons, Stephanie Adamany and Jessica Adkins deserve much of 
the credit for this study. I am testifying today in my capacity 
as a research biologist with no management authority or 
responsibility on this issue.
    To briefly summarize our previous research results, we 
found that the largest Caspian tern colony in the world resides 
on a dredge material disposal island in the Columbia River 
estuary called Rice Island.
    This breeding colony has grown substantially in the last 
decade and has recently been the nesting site for over 16,000 
terns. The nesting period of this species generally coincides 
with the period of juvenile salmonid out-migration in the 
Columbia River estuary. Our data indicated the Caspian terns 
were most reliant on juvenile salmonids as a food source, 
amounting to about 75 percent of food items in 1997, 1998, and 
1999.
    We used a bioenergetics model to estimate the numbers of 
juvenile salmonids consumed by the Rice Island Caspian tern 
colony in 1997 and 1998. In 1997, we estimated between six and 
25 million juvenile salmonids were consumed by Caspian terns, 
or approximately six to 25 percent of the estimated 100 million 
out-migrating smolts that reached the estuary. In 1998 the 
estimated number of juvenile salmon consumed by Rice Island 
Caspian terns was seven to 15 million or approximately eight to 
16 percent of the estimated 95 million out-migrating smolts 
that reached the estuary in 1998.
    Preliminary analysis of diet data from 1999 indicates that 
smolt consumption by terns was similar to 1998.
    The magnitude of Caspian tern predation on juvenile 
salmonids has been cause for considerable surprise and concern. 
We think there are four observations that relate to the current 
situation. First, the Columbia River estuary has experienced 
declines of forage fish stocks that would, under other 
circumstances, provide alternative prey for fish-eating birds 
such as terns.
    Second, most of the salmonids consumed by Caspian terns at 
the Rice Island colony were raised in hatcheries, and the 
proportion of hatchery raised smolts in the diet of terns 
exceeds what would be expected based on availability. This 
suggested hatchery-raised smolts are especially vulnerable to 
tern predation and may attract foraging terns.
    Third, juvenile salmonids that survive the out-migration to 
the estuary must negotiate dams, slack water impoundments, and 
other obstacles in their efforts to reach the sea. The 
cumulative stress associated with this migration likely 
enhances their vulnerability to tern predation in the estuary.
    Finally, the Caspian tern colony on Rice Island is one of 
only two known colonies of its kind along the coast of Oregon 
and Washington, and Rice Island represents one of the few if 
not the only suitable nesting habitat for this species along 
the coast of the Pacific Northwest. This exceptionally large 
breeding colony has coalesced at Rice Island because there are 
few other options for Caspian terns searching for a colony 
site.
    One of our research objectives for the 1999 field season 
was to test the feasibility of using restoration of former 
Caspian tern colonies to reduce predation on smolts in the 
Columbia River estuary. Specifically, we wanted to test the 
hypothesis that relocating the tern colony on Rice Island to a 
previous colony site on East Sand Island would result in a 
significant reduction in tern predation on juvenile salmonids. 
East Sand Island is about 13 miles down river from Rice Island 
and five miles up river of the mouth of the Columbia River.
    A greater diversity of forage fishes that are thought to be 
available to fish-eating birds in the vicinity of East Sand 
Island compared to Rice Island. Attempts to attract Caspian 
terns to nest at East Sand Island using habitat restoration, 
tern decoys, and audio play-back systems were successful.
    In 1999, 1,400 pairs of Caspian terns attempted to nest on 
East Sand Island. Most importantly, Caspian terns that nested 
East Sand Island consumed only 44 percent juvenile salmonids, 
which is 41 percent fewer salmonids than were consumed by terns 
nesting on Rice Island.
    These research results suggested relocating the Caspian 
tern colony from Rice Island to East Sand Island, near the 
mouth of the river is a feasible short-term management option 
for reducing tern predation on juvenile salmonids.
    This proposed management action has the potential to save 
two to seven million smolts that have reached the estuary in 
2000 and would have otherwise have been consumed by terns. 
Longer term management may include attracting portions of the 
current Rice Island Caspian tern population to nest outside the 
Columbia River estuary.
    I'm out of time so I will skip to the take home message.
    Management action focusing on tern predation in the estuary 
may be an effective and efficient component of a comprehensive 
plan to restore salmon to the Columbia River Basin. There is 
consensus support within the Interagency Caspian Tern Working 
Group to pursue relocation of the tern colony in 2000. There is 
currently, however, as you've heard, a temporary restraining 
order that prohibits hazing of Caspian terns attempting to nest 
at Rice Island, and unless the TRO is lifted soon, Rice Island 
may again be the site of a large Caspian tern colony in 2000.
    The Working Group also is committed to restoring former 
Caspian tern colonies at sites outside the Columbia River 
estuary, so that the very large population in the Columbia 
River estuary can be redistributed over a number of smaller 
colonies throughout the Pacific Northwest. However, funding for 
this management activity or for the continued monitoring and 
evaluation of this problem has not been formally addressed.
    Thank you, Madame Chair, for the opportunity to present 
this testimony.
    [The prepared statement of Dr. Roby follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.087
    
    [GRAPHIC] [TIFF OMITTED] T8012.088
    
    [GRAPHIC] [TIFF OMITTED] T8012.089
    
    [GRAPHIC] [TIFF OMITTED] T8012.090
    
    Mrs. Chenoweth-Hage. Thank you, Dr. Roby, and the Chair 
recognizes Mr. Hagerty for his testimony.

 STATEMENT OF DEAN HAGERTY, COMMISSIONER AND PRESIDENT, PUBLIC 
     UTILITY DISTRICT OF GRANT COUNTY, EPHRATA, WASHINGTON

    Mr. Hagerty. My name is Dean Hagerty and I'm appearing 
before you today as the Chairman of a five-member elected 
commission for Grant County Public Utility District in Ephrata, 
Washington. I appreciate this opportunity to address the 
Committee on what it and has been an important question in this 
part of the United States; how do we preserve and protect the 
salmon runs in our rivers and streams.
    Grant County PUD is a publically owned utility which 
operates two multi-purpose dams, Priest Rapids and Wannapum 
located in the mainstream of the Columbia River. These 
facilities known as the Priest Rapids Project provide almost 
100 billion kilowatts of energy during an average year.
    The health and abundance of salmon that inhabit the 
Columbia Basin has long been a concern of Grant County PUD. 
Each year Grant County PUD and it customers invest nearly 50 
million dollars in salmon protection and enhancement. We 
operate successful hatchery programs and hearing these other 
folks on the Rice Island thing, we know that our hatchery 
program, a good portion of our smolt that go down there end up 
on the island because the pit tags that we put in can be found 
on the island, and have initiated some of the most innovative 
salmon production programs in the region.
    We are particularly proud of the part we have played to 
keep the population of fall and summer Chinook among the 
heathiest in the Columbia Basin and have had great success 
using the collaborative approach to solving salmon problems. 
Their turnaround began in late 80's through the cooperative 
efforts of all operators of the Mid-Columbia hydro electric 
project, working in concert with concerned Federal and State 
agencies and Indian tribes. This unique collaboration is known 
as the Vernita Bar Agreement and is widely recognized as a 
model for others to follow, a chart of results of the Vernita 
Bar Agreement are before you here. Congressman Hastings had an 
opportunity to visit our hatchery recently.
    Recently, Grant County PUD led another collaborative effort 
to protect the newly hatched fall chinook in the Hanford Reach 
from being stranded or dewatered in shoreline pools when the 
river level fluctuates. Grant County PUD did not wait for 
someone else to act or deny the problem, rather we assembled 
the Mid-Columbia operators, Federal and State protection 
agencies, and Indian tribes to solve the problem. In all of 
Grant County PUD silent production and enhancement efforts, a 
cardial rule has always reigned good credible science must lead 
the way.
    In contrast the debate surrounding the salmon-related 
issues on the Snake River is contentious adversarial and adrift 
in poor and often conflicting science. Grant County PUD does 
not support the breaching of the Snake River dams. This 
fragmentation has led to polarized positions which have not 
advanced solutions for the salmon. We should be looking for 
solutions that make sense, are economically acceptable and get 
results rather than entertaining the ideas for experiments that 
are risky and premature, such as dam breaching.
    As an elected official I encourage you and the region to 
work toward solutions that balance the needs of our multiple 
purpose river system and make good use of our resources, both 
financially and natural in the process. Do exactly what you are 
doing, look for ideas from the people in the region. Then work 
with them to make it happen. That's what makes all of us good 
stewards of our natural resource. The northwest can save the 
salmon while maintaining a healthy environment and strong 
economy, but we can only do that if salmon recovery solutions 
are No. 1, reasonable, No. 2, balanced, and No. 3, fair, and 
No. 4 involve all parties concerned and five and most 
importantly are grounded in good credible science. Thank you.
    [The prepared statement of Mr. Hagerty follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.091
    
    [GRAPHIC] [TIFF OMITTED] T8012.092
    
    [GRAPHIC] [TIFF OMITTED] T8012.093
    
    Mrs. Chenoweth-Hage. Thank you, Mr. Hagerty. The Chair 
recognizes Mr. Ilgenfritz and thank you very much.

   STATEMENT OF RIC ILGENFRITZ, COLUMBIA BASIN COORDINATOR, 
            NATIONAL MARINE FISHERIES SERVICE, NOAA

    Mr. Ilgenfritz. I would like to thank the Chair and the 
members of the Subcommittee. My name is Ric Ilgenfritz. I'm the 
Columbia Basin Coordinator for the National Marine Fisheries 
Service, which essentially means I am the program manager for 
trying to figure out how we implement the Endangered Species 
Act throughout the Basin.
    I would like to begin by apologizing and taking 
responsibility for the situation in which the Committee finds 
itself with respect to the materials that we've submitted for 
the record, and just add to that the Fisheries Service values 
its relationship with the Committee. Our ability to do our job 
well depends on it. If we don't have it or if we are in danger 
of losing it then it's on to us to do something about that. So 
I apologize for that situation. I'll work with your staff to 
make sure you have what you need when you need it.
    I have submitted written testimony for the record. In the 
interest of brevity try to hit the high points and provide a 
little bit of information about the products that we're 
developing and the environmental circumstances we find 
ourselves in right now which these products will seek to 
address. Then I'll talk a little bit about the science that 
we've been utilizing as part of that effort.
    First and foremost, we are working to develop a new 
biological opinion for Columbia River hydro system. We have 
working with the Army Corps of Engineers, the Bonneville Power 
Administration, the Bureau of Reclamation, the Fish and 
Wildlife Service and other Federal agencies to develop that 
document. The scope of that document will encompass all 12 
listed ESUs in the Basin. The jeopardy standard that we will 
use in that document will be the same as the jeopardy standard 
that we utilized in 1995, which is to say the actions we will 
be looking for should have a high likelihood survival and a 
moderate-to-high likelihood of recovery of the affected 
species.
    Our current schedule for finalizing and issuing that BO is 
to circulate a draft on or about May 22nd to the action 
agencies and the States and the tribes and go through a period 
of technical review and try to finalize it and issue it by the 
first week of July. I will be happy to answer any questions on 
that during the Q&A period, but I would like to turn briefly to 
the All-H paper, which is the second product we are developing.
    The All-H paper is essentially a conceptual recovery 
strategy designed to look at all the human impacts across all 
the H's that affect these species.
    We've utilized that approach for a couple of reasons; one, 
as a coordinating mechanism for the Federal Government to try 
to get all nine agencies involved to essentially speak with one 
voice and look at the data and issues through a single prism. 
We've also tried to use it as a tool for engaging the public. 
We've had 15 public hearings at which 10,000 people attended. 
We took something like 1500 oral comments and about sixty 
thousand oral comments.
    We tried to use the document there both to engage and 
inform the public about what the choices are, ranging from 
incremental improvements on the status quo to moderate 
improvements to more aggressive improvements across all the 
life stages.
    Our intent is to revise that document and issue it on the 
same timeframe as the biological opinion so that it can provide 
the broader recovery context into which the biological opinion 
will fit. So the hydro options we're seeking in the BO will be 
seen in the context of what everybody else will be contributing 
to the solution.
    Very briefly let me talk a little bit about the science 
we've been using. Two primary tools we've used are called PATH 
and CRI. You've probably heard of them. PATH is the Process for 
Analyzing and Testing Hypotheses. It was the basis of the draft 
biological analysis we provided to the Corps for the Snake 
River EIS last spring.
    The second tool we've been utilizing is the Cumulative Risk 
Initiative which is a tool we developed at the beginning of 
last year partially in response to comments we received on the 
PATH process and partially in response to determination that we 
needed to focus more broadly than just the Snake River.
    The latest analyses from the CRI process are in. I'll give 
you a very brief summary of that and then move on. In general 
what it's showing us is that the stocks in the upper Columbia 
and the upper Snake are the ones that are in the poorest shape. 
Steelhead more or less throughout its range in the upper 
Columbia and Mid-Columbia and Snake River are also in very poor 
shape.
    Looking briefly at the numbers, we are calculating, 100-
year extinction risks for those stocks and in the interest of 
time I'll just skip over those. In addition to providing the 
extinction risk estimates, CRI also gives us estimates of 
productivity improvements we need to achieve in order to put 
all those stocks on a recovery pathway. That's very helpful to 
us when we are sitting here trying to develop performance 
standards for the hydro system and every other life stage.
    I'm going to stop there on the All-H and say a brief word 
about marine mammal predation. We are conducting ongoing 
studies of marine mammal predation in the Columbia River 
estuary. We have preliminary data that is giving us a sense of 
what the levels of predation. We have been collecting data 
since 1995. We've analyzed data from 1995,'96,'97. What it's 
showing us is a range of possible predation on adult returning 
populations of less than 1 percent up to about three or 4 
percent.
    The data aren't particularly useful as a management tool 
yet, because we haven't refined our ability to determine what 
all that means. Our next steps there are to analyze our 1998 
and 1999 data and take our research to the next step to improve 
our precision and try interpret exactly what it means. Are they 
eating primarily hatchery fish, wild fish, what have you?
    So with that I will conclude. By way of conclusion, I want 
to introduce the gentleman to my left, Dr. Phil Levin. He's 
from our Northwest Fisheries Science Center, and he's a member 
of the CRI team. He is not here to provide testimony but if you 
want to draw on his expertise as a member of the team then he 
will be available to the Committee to answer questions. Thank 
you very much.
    [The prepared statement of Mr. Ilgenfritz follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.094
    
    [GRAPHIC] [TIFF OMITTED] T8012.095
    
    [GRAPHIC] [TIFF OMITTED] T8012.096
    
    [GRAPHIC] [TIFF OMITTED] T8012.097
    
    [GRAPHIC] [TIFF OMITTED] T8012.098
    
    [GRAPHIC] [TIFF OMITTED] T8012.099
    
    [GRAPHIC] [TIFF OMITTED] T8012.100
    
    [GRAPHIC] [TIFF OMITTED] T8012.101
    
    [GRAPHIC] [TIFF OMITTED] T8012.102
    
    [The report "A Standardized Quantitative Analysis of Risks 
Faced By Salmonids in the Columbia River Basin" is retained in 
Committee files. This report is also referred to as the 
"Cumulative Risk Initiative (CRI)".]

    Mrs. Chenoweth-Hage. Thank you. I want to remind the 
members that there are certain Committee rules by which people 
can be authorized and cleared to answer questions and was well 
as give testimony. The Chair has ruled that no witnesses will 
be able to give answers except those that have been cleared by 
the Committee. So we really wish we could have had a better leg 
up on this CRI, this document, and having been able to study it 
but obviously we can't. So we will be asking questions only of 
the witnesses who have been recognized and we will keep the 
record open for further questions from the Committee on details 
of the CRI. So that with the Chair recognizes Mr. Simpson.
    Mr. Simpson. Thank you, Madame Chairman. Dr. Roby, first of 
all, you mentioned the temporary restraining order that was 
imposed by the Federal judge on disturbing the terns out there. 
When would that have to be lifted in order to do something this 
year, to be effective this year?
    Dr. Roby. It's difficult to predict when the first egg will 
be laid on Rice Island. The U.S. Fish and Wildlife Service 
previously issued a permit to the contractors the Corps has 
contracted with to haze terns on the Rice Island tern colony to 
collect up to 300 Caspian tern eggs. So we are thinking that 
when 300 eggs or more are laid on Rice Island we will be stuck 
with the colony breeding again on Rice Island this year.
    My best guess is that that would happen or that 300 eggs 
would be deposited on Rice Island probably by the fourth or the 
fifth of May, so very soon. If the TRO isn't lifted in the next 
few days I think the game has been lost.
    Mr. Simpson. Mr. Ilgenfritz, one question I asked the 
previous panel they suggested maybe you could have the answer 
to, has there been any noticeable, let alone significant, 
increase in the condition of the salmon with 427,000 acre feet 
that the State of Idaho has authorized over the last several 
years?
    My basic response would be that Doug Arndt on the previous 
panel correctly characterized the conclusions we have been able 
to draw, which is of more obvious benefit for fall Chinook and 
a less obvious benefit for some of the earlier migrants. Our 
goal with the flow augmentation program is to whatever we can 
to try to mimic the natural hydrograph, what the fish would be 
seeing in the river were it running in its natural condition. 
That's sort of the crux of our thinking in that regard.
    Mr. Simpson. Thank you. Mr. Bogert, appreciated your 
testimony and the frustration that I think the Governor and the 
people of Idaho feel with what's going on. We have a Federally-
protected fish and Federally- protected terns that are eating 
these on a Federally made island and Idahoans are being asked 
to make significant sacrifices in water and other things to 
flush more smolts down the river. It doesn't seem like it's to 
increase salmon but more to make a deli for these terns down 
here that we're not really doing anything about.
    Mr. Bogert. Congressman Simpson, that is I think succinctly 
the perspective that a lot of our stakeholders in the State of 
Idaho, I know the Governor certainly feels that way and I think 
that's his point on why from our perspective, and I know you 
share this, that we have the most to lose. We have our water to 
lose, we have perhaps our habitat to lose, and there's 
discussions over our transportation system and the lifeblood 
for many of Idahoans in the northern part of the State, and all 
of this at stake with perhaps nothing at the end of the day to 
show for it. That's a correct assessment.
    Mr. Simpson. Could you tell me some of the other things. I 
know Idaho and the Governor are working very hard to address 
other issues because we believe there's more than just dams at 
stake here. We are looking at other things to try to improve 
salmon recovery habitat and so forth. Could talk about some of 
things the State of Idaho is doing or potentially looking at 
doing in terms of improving the habitat for salmon?
    Mr. Bogert. Yes, thank you. Prior to the advent of the 
upcoming biological opinion the State has been assessing 
issues, which from our view, have to occur; things like 
diversion screening. These are projects that we are 
coordinating closely with the Northwest Power Council to try to 
receive, assess the exposure there, and obtain money to try to 
help us and our help our stakeholders and agricultural try to 
remedy, so that we move that particular component of the table.
    For several years now the State has been looking at trying 
to improve water quality in the north part of the State through 
a TMDL, total maximum daily load schedule through our 
Department of Environmental Quality. These are things, which 
from our perspective, have given us a running start we think on 
that which would be our fair share and our contribution across 
all of the H's.
    I might add on hydro power the Governor has been a strong 
proponent of putting the best and the brightest that the 
Federal Government and the States have in terms of 
technological advancements to simply make fish passage easier 
through the hydro system and he believes that that is a worthy 
and warranted investment by the Federal Government and also by 
the State to come contribute to that as well.
    Mr. Simpson. The Governor has mentioned several times the 
fish friendly turbines in the dams and the studies that have 
been done on that, is that something that the Governor 
supports, increasing fish passage past the dams?
    Mr. Bogert. Representative, he supported that as a United 
States Senator. We continue to support that and our 
understanding is that some of the initial test runs that have 
been done with the new technology at Bonneville Dam have showed 
improvement and significant improvement and should be continued 
to be developed.
    Mr. Simpson. Thank you.
    Mrs. Chenoweth-Hage. Mr. Hastings.
    Mr. Hastings. Thank you, Madame Chairman. I'll probably 
spend most of my questions with Mr. Ilgenfritz. First of all, I 
want to wish you happy birthday. I understand it is your 
birthday. Perhaps the question should be are you celebrating an 
anniversary of your birthday or are you still counting them.
    Mr. Ilgenfritz. I'm still counting, but not for long.
    Mr. Hastings. I'm going to get off subject here because I 
haven't received a response from NMFS and this is the first 
opportunity that I've had to followup. On March 24th, I wrote 
Will Stell a letter regarding destruction of the Kingdome and 
what affect that would have on the fish because of the 
proximity to Puget Sound.
    The reason I wrote that letter is because on two occasions 
last year in my district, once in Wenatchee and one in 
Richland, those cities were prohibited from putting up a 
stoplight because they said that that activity could possibly 
hurt the fish in the Columbia River. I found that a little hard 
to believe. So that prompted this letter because I suspected 
that the implosion of the Kingdome could cause a bit more of 
activity than putting up a stoplight.
    I have not received a response yet, I ask you to make sure 
a response is forthcoming, but the only response that was 
printed in the paper was by an official at NMFS that said 
something like, We didn't think there was any impact at all, so 
why bother looking at it?
    Now, I found that rather hard to believe when they are not 
allowing stoplights to be put up in an area that sees less than 
10 inches of rain. So with that, what I would like, Madame 
Chair, is to ask consent to have this letter be part of the 
record, and also when the response comes from Mr. Stell to have 
that make part of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.303
    
    [GRAPHIC] [TIFF OMITTED] T8012.304
    
    [GRAPHIC] [TIFF OMITTED] T8012.305
    
    Mr. Hastings. If you would like to respond to that, Ric, I 
would be more than happy to hear your response.
    Mr. Ilgenfritz. Thank you, and you've linked two issues 
that stand to be linked because they're similar and they 
demonstrate the nature of our changed workload under the 
listings of the species under the Endangered Species Act.
    It's an utterly insane proposition that policy people at 
the National Marine Fisheries Service ought to somehow sign off 
on every single traffic improvement, road project, what have 
you, in the land as something that might impact salmon. If we 
had to do that you could not hire enough people nor spend 
enough hours in the day cranking this stuff out in a way that 
keeps the economy cooking along.
    So part of our chore as we try to get our minds and our 
agency around this task is to develop conservation initiatives 
that get us some efficiencies and how we're clearing these 
projects, and how people are getting guidance from the agency 
on how to avoid jeopardizing fish. That's a challenge that we 
take very seriously and something that we need to work on.
    Mr. Hastings. It seems that one obvious solution to that is 
the statutes are so tight you should need some sort of 
legislative relief on that. Would you be willing to pursue 
that?
    Mr. Ilgenfritz. That's probably way above my pay grade, 
Congressman, although I understand the origins of the question. 
The nature of the law is such that when local agencies and 
entities are engaging in planning for transportation or any 
other projects, they look at them to see whether there's an 
impact or likely impact on a listed species. If they're not 
sure or they don't know or they're not qualified to determine, 
they just ship it to us or the Fish and Wildlife Service.
    Mr. Hastings. The stoplight?
    Mr. Ilgenfritz. The vast majority of stuff we got from the 
Washington Department of Transportation last year would have no 
impact, but they didn't know. So they sent it to us to look at 
and we ended up with a huge pile of stuff to look at that we 
probably shouldn't have been looking at.
    Mr. Hastings. But you did look at the Kingdome?
    Mr. Ilgenfritz. I don't know the situation there because I 
wasn't involved in it. My guess is that the county probably 
didn't ask us to look at it.
    Mr. Hastings. Let's pursue that. If counties over here are 
at risk because they are afraid. Sometimes fear is a great 
motivator, and if two cities were fearful of NMFS coming down 
on them because they didn't ask, regarding a stoplight, and the 
fact that King County apparently didn't ask because there's no 
fear, isn't that a bit of a double standard in how you're 
treating this?
    Mr. Ilgenfritz. Well, a traffic improvement at a local 
level is essentially a transaction between the local authority 
and the State Department of Transportation. The State 
Department of Transportation is going to provide most of the 
funds. Most of those funds are Federal funds. Before the State 
signs off they're going to look to us for an indication.
    So most of those projects that we got, we didn't get from 
the local governments here in the Tri-Cities and other 
communities. We got them from the State because the State folks 
were not prepared to make the call that these projects do or do 
not jeopardize a listed specie.
    So what we need to do is find some efficiencies in how we 
clear these projects.
    Mr. Hastings. I see. I want to get to another question. In 
previous testimony Colonel Mogren said that the Corps has 
decided not to pursue, in fact, they suspended, any more study 
of John Day drawdown. We are hearing indications that what 
would be coming out of your report potentially this summer is 
to reactivate that. Is there any truth to that?
    Mr. Ilgenfritz. There may be two different questions 
involved here with respect to the disposition of the John Day 
Study. The question that study is trying to answer is basically 
can any more be learned by studying it further? The subsequent 
question is should it or should it not be considered as a 
management tool. The Corps study is answering the first 
question. Is there anything more we can learn by studying this 
further and they're saying basically no, but that doesn't 
answer the second question; should it or should it not be 
considered as a management tool. That standpoint, that latter 
question is not yet answered.
    Mr. Hastings. Potentially this could be reopened then, 
albeit based maybe a different question but you could open the 
question of drawing down once again the pool of John Day; is 
that correct?
    Mr. Ilgenfritz. I wouldn't characterize an answer to a 
question that hasn't been answered yet. I'll try to answer 
that.
    Mr. Hastings. Well, put it another way, one Federal agency 
based on the best data that they have has concluded that there 
is no more further study need. Another agency namely NMFS is 
saying, No, we think it ought to be, I'll say reopened up again 
even though another agency based on sound data is suggesting 
the opposite; is that correct?
    Mr. Ilgenfritz. We are not necessarily taking issue with 
the Corps' conclusion that there is nothing further to be 
learned. We've reviewed their conclusions and submitted some 
analysis for them, and there's not really any disagreement 
between the two agencies on that question.
    Mr. Hastings. My time is up. Thanks for your consideration.
    Mrs. Chenoweth-Hage. Thank you, Mr. Hastings. The Chair 
recognizes Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Chairman, and welcome to all of 
the panelists and thank you for your testimony.
    Mr. Ilgenfritz, with respect to the data used by the CRI, 
it's my understanding the data used was for a 15-year period 
from 1980 to 1994; is that correct?
    Mr. Ilgenfritz. That's correct.
    Mr. Nethercutt. Yet your testimony here today is that 
you're looking at doing an evaluation of extinction risks over 
the next 100 years. Why in the world would you only look back 
15 years to make a judgment about what's going to happen over 
the next 100 years? Please answer that if you can and as a 
second followup, what about the returns that we're seeing now 
that are more vigorous? To what extent are you taking into 
consideration those as you come to your conclusions and 
recommendations?
    Mr. Ilgenfritz. I'll give part of an answer to the second 
question first and then circle back to it. The data we looked 
at was 1980 to 1994 brood years. We consider the adult returns 
up through the 1994 brood years. That gives us 1995,'96,'97 
returns, as well. So it's almost a 20-year period that we are 
looking at, but the answer to your first question is twofold; 
one beginning in 1980, 1979 really was the first year class 
that came back after the hydro system was in its current 
configuration. Based on how it's configured now and how it's 
been operated, that's when the snapshot in time begins for 
adult returns.
    The second part of the answer is those particular years 
were really tough years, in the ocean in particular, and what 
they help do is give you and everybody else an idea of what the 
worst case scenarios are, given bad conditions, given all 
theses factors, what is the scenario in which these species are 
most likely to go extinct and what is the likelihood that that 
is going to happen.
    Mr. Nethercutt. Based on that testimony and also 
considering the extraordinary returns that we're seeing now, 
which I assume you acknowledge exist.
    Mr. Ilgenfritz. Absolutely.
    Mr. Nethercutt. To what extent will that influence your 
biological opinion and the conclusions that come from it?
    Mr. Ilgenfritz. To a great extent. There is a debate going 
on about how conservative one needs to be when putting together 
a biological opinion. The courts have tended to tell us that 
when we are uncertain about data or conclusions based on data 
that we should resolve those conflicts in the favor of the 
listed species. That guidance from the case law pushes us to 
being more conservative, but there is a certain amount of 
discretion we have there.
    The returns we have been seeing the last 2 years ar very 
heartening. The year class we got back this year went out in 
1996. It was the first year class to benefit fully from the 
hydro operations we called for in the 1995 biological opinion. 
It's obvious that the news is not all bad. There are some 
things we're doing that are generating some results. Obviously, 
ocean conditions have a lot to say about that.
    Mr. Nethercutt. With respect to that, Dr. Anderson's 
testimony was compelling with respect to the shifting ocean 
conditions and the impact that they have on returns. To what 
extent has National Marine Fisheries Service expended resources 
and done studies of shifting ocean conditions as it relates to 
this problem?
    Mr. Ilgenfritz. We have been and are begging to do more so 
and I think we need to factor that in.
    Mr. Nethercutt. To what extent have you done it so far; I 
take it minimally.
    Mr. Ilgenfritz. Within the agency we have been relying on 
the work of others.
    Mr. Nethercutt. To what extent have you been relying on the 
work of others and to what cost can you quantify that? How much 
money have you spent with respect to shifting ocean conditions 
as a part of this problem?
    Mr. Ilgenfritz. In terms of studying them?
    Mr. Nethercutt. Yes, sir.
    Mr. Ilgenfritz. I'd have to answer that one for the record.
    Mr. Nethercutt. I'd appreciate it if you would. I also 
looked at your testimony with respect to the All-H paper and 
looked at the statement here. You say in this option relative 
to the hydro system, the earthen portions of each lower Snake 
dam would be removed over a period of seven to 8 years as 
described by the Corps. That's page seven, first full 
paragraph. Would you not acknowledge, sir, that assuming that 
this removal occurred and assuming that your seven to 8 year 
period is correct--and I don't know that that's exact number of 
years but assuming that it's true--aren't we looking at a 
period of at least seven or 8 years and then beyond that once 
there were a breach, which none of us here that we know of 
approve? Aren't we looking at between eight and another 20 or 
30 years before we even know if this action will be effective 
with respect to the return of these species of fish?
    Mr. Ilgenfritz. There is no doubt that salmon recovery is a 
long-term proposition.
    Mr. Nethercutt. I know salmon recovery is a long-term 
proposition, but dam removal is going to extend, is it not, any 
determination about whether the recovery efforts of dam removal 
are effective? We could be looking 30 years before we even know 
if this experiment is a good one or bad one?
    Mr. Ilgenfritz. That's possible; yes.
    Mr. Nethercutt. Is it likely?
    Mr. Ilgenfritz. A lot of years will have to pass before we 
know whether the results of the project are what we thought 
they might be.
    Mr. Nethercutt. I assume you wouldn't disagree with 
anywhere from seven to eight period years of interruption in 
the process of demolition and then another eight to 30 and 
would you agree with those numbers?
    Mr. Ilgenfritz. I'd prefer to get a scientific opinion on 
that. I don't know how many years of data they'd want to look 
at before they would be comfortable making a prediction.
    Mr. Nethercutt. Are you familiar with the L-Watt dam 
removal question and are you familiar with any testimony that 
might have been forthcoming with respect to this issue of 
return of fish runs and the projected data that would be 
conclusive or inclusive relative to the return projections?
    Mr. Ilgenfritz. Not off the top of my head.
    Mr. Nethercutt. My understanding is that it's anywhere 
between eight and 30 years before we know if it would do any 
good at all.
    Mr. Ilgenfritz. That's not unreasonable, eight to 10 years 
is two generations.
    Mr. Nethercutt. Thank you.
    Mrs. Chenoweth-Hage. Thank Mr. Nethercutt. I'm going to 
direct my questions at first to Mr. Bogert. Mr. Bogert, you'll 
need the microphone down there. Mr. Bogert, did Idaho have a 
seat on the Caspian Tern Working Group?
    Mr. Bogert. Madame Chairman, we did. We sent folks from the 
Idaho Department of Fish and Game and we have been coordinating 
with them very closely on this issue. As Dr. Roby can attest we 
in Idaho argued very strenuously for the most aggressive 
possible actions to be taken by the Working Group, but the 
collaborative process required that everyone at the table 
perhaps compromise a little bit and accordingly at the end of 
the day while we participated in the process we were not 
thoroughly pleased with the final direction that was taken, but 
we nonetheless participated in good faith and engaged in those 
discussions.
    Mrs. Chenoweth-Hage. What did the group decide?
    Mr. Bogert. At the end of the day, we had advocated for a 
much stronger and more aggressive policy with respect to the 
birds in the estuary in terms of even--Our assessment was that 
minimal space allowed on East Sand Island would have been even 
more, that eventually the Group decided to put forward in terms 
of its relocation strategy, was probably in order, if not a 
complete strategy that involved perhaps no birds on either Rice 
or East Sand Island.
    But that position, through the collaborative process 
eventually ended up, and Dr. Roby can probably get into more 
detail, with a complete harassment with no terns on Rice 
Island, which from our perspective at the end of the day is the 
most lethal of the nesting sites for the terns, and then 
alternative nesting sites to accommodate the population that 
would have otherwise nested on Rice Island be afforded on East 
Sand. I think that's a brief summary of what as to the group at 
the end of the day decide to press forward with.
    Mrs. Chenoweth-Hage. Mr. Bogert, what has happened with the 
lawsuit involving the terns? Can you give a brief description?
    Mr. Bogert. Madame Chair, the latest on that is as of last 
week the State of Idaho participated as amicus curiae in the 
lawsuit supporting the position of the Corps as to the adequacy 
of the harassment strategy. At the end of the day this was what 
was enjoined and what we believed to be the most critical 
component of the lawsuit, and I might add that we have received 
support from the State of Washington and the State of Oregon 
who have joined us as amicus curiae supporting the position of 
the working group with respect to harassment strategy on Rice 
Island.
    Early last week it was decided by all parties of the case 
to stipulate to a preliminary injection to provide an avenue 
and appropriate procedure to take this case on an emergency 
basis to the Ninth Circuit, and as of late last week all of the 
papers were filed with the Ninth Circuit, and as Dr. Roby 
testified, we await word any moment, perhaps by the end of this 
week, as to what action, what we hope our enlightened judges in 
the Ninth Circuit to finally end this insanity over this most 
confusing and baffling of lawsuits.
    Mrs. Chenoweth-Hage. Thank you, Mr. Bogert.
    Mr. Ilgenfritz, I want to ask you, why does the Marine 
Mammal Protection Act and the Migratory Bird Treaty Act seem to 
trump the Endangered Species Act, when NMFS tells us the ESA 
trumps all laws, such as the National Forest Management Act, 
and so forth. I'm baffled by this because Congress in the 
passage of ESA did not indicate that the ESA would trump all 
laws, neither did Congress indicate that Marine Mammal 
Production Act and the Migratory Bird Treat Act would remain at 
the top of the legal chain. So would you please answer that for 
the record?
    Mr. Ilgenfritz. I'm not aware of whether there is any case 
law on the Marine Mammal Protection Act and ESA going head to 
head. My understanding of the claim that's currently before the 
Court is that it's essentially a NEPA claim, that there's no 
EIS on the plan that the Corps is trying to implement.
    I'm not aware directly of whether there's been a measure of 
MMPA versus ESA in court. I can hopefully inform the Committee 
of the treatment of those statutes. We did do a report to 
Congress last year on Marine Mammal Protection Act in which we 
made some recommendations for the reauthorization that included 
giving us the authority to use lethal removal where necessary 
and appropriate to control marine mammal predation on listed 
species. My understanding is that those recommendations are 
pending before the Commerce Committee, perhaps before the House 
Resources Committee, too. So it's a vague area of law to be 
sure and we're trying to clarify it.
    Mrs. Chenoweth-Hage. Then under those circumstances as 
described in your answer, why hasn't National Marine Fisheries 
Service ordered removal of the terns?
    Mr. Ilgenfritz. We participated as well in the Caspian Tern 
Working Group and we wholeheartedly have supported the Corps' 
attempt to implement its project to harass the terns on the up 
river island. I checked with our general counsel before I came 
in this morning and was informed that we are expecting a 
decision from the Appeals Court tomorrow.
    We joined the Justice Department in appealing the 
preliminary injunction and our hope to that the Appeals Court 
will side with us so we can get moving.
    Mrs. Chenoweth-Hage. I want to expend my time to ask a 
couple of more questions that may affect my State. I would like 
for you to describe or define the terms, Federal Columbia River 
power system in the context of the biological opinion by NMFS 
in the 1990's for the Endangered and Threatened Anadromous Fish 
Species in the Pacific Northwest and then I would like for you 
to define which Federal facilities have been included in the 
confines of that definition in those biological opinions; which 
Federal facilities were included.
    Mr. Ilgenfritz. FCRPS is generally a term used to describe 
all Federal dams in the Columbia and Snake River systems. 
That's what we think of. There is an ongoing dialog between my 
agency and some agencies in the Department of Interior about 
whether that term extends to cover irrigation facilities as 
part of the Columbia Basin project, the Yakima River project 
and so on and so forth. My understanding is that that 
discussion is ongoing and as unresolved.
    Mrs. Chenoweth-Hage. So in the 1990's, actually the dams 
included the Dorschak (phonics), Lower Granite, Little Goose, 
etc; right?
    Mr. Ilgenfritz. On the Snake and Grand Coulee down and in 
the storage projects in Montana.
    Mrs. Chenoweth-Hage. All right, will you indicate for the 
Committee the FCRPS definition in the National Marine Fisheries 
Service 2,000 biological opinion as to any additional Federal 
facilities that might be included?
    Mr. Ilgenfritz. It will cover all the facilities as 
identified in the previous biological opinion and we are still 
discussing with the Interior and the Bureau of Reclamation in 
particular whether it will cover irrigation facilities more 
generally and really like which irrigation facilities are on 
the table for discussion.
    The irrigation facilities generally tends to get tied up in 
the broader discussion of water management. So I don't know 
that we have actually gotten to the point of discussing 
specific facilities. Talking more generally we have to talk 
about specific facilities in order to ensure that the water 
management regime agreed to in the BO is sufficient.
    I don't have an answer for you because the discussion is 
still ongoing. I think it's something we should work on over 
the course of the next couple of months.
    Mrs. Chenoweth-Hage. I'm not happy with the vagueness of 
your answer. Let's try this again. Obviously, when were you 
sitting down with your staff and with people in Washington, 
obviously there are Federal facilities that are either 
irrigation facilities or both irrigation and power producing 
facilities that are within the parameters of discussion in the 
expansion of the FCRPS. Which areas are included and which 
potential Federal facilities are included in those talks?
    Mr. Ilgenfritz. All of the main stem, Columbia and Snake 
River dams in the United States including the Montana Storage 
Projects. In addition to the main stem dams there is discussion 
of whether to include irrigation facilities as well to the 
extent that return flows from irrigation facilities can affect 
mainstream flows.
    Mrs. Chenoweth-Hage. In Idaho would that include the entire 
Hell's Canyon complex plus the up river irrigation facilities 
like Milner and Black Canyon Dam and so forth?
    Mr. Ilgenfritz. I think those facilities are tied up in the 
discussions that are ongoing right now and I don't think there 
are any conclusion to those discussions right now that I can 
report on.
    Mrs. Chenoweth-Hage. Can you tell what the legal authority 
and justification for changing the CRPS definition to include 
these Federal facilities are?
    Mr. Ilgenfritz. The Endangered Species Act.
    Mrs. Chenoweth-Hage. All right. I've received word that Mr. 
Hastings and Mr. Nethercutt would like a second round. So we'll 
begin the second round with Mr. Nethercutt.
    Mr. Nethercutt. Mr. Bogert, I especially appreciate your 
being here on behalf of Governor Kempthorne. He's really been a 
partner with our State trying to deal with this tern problem 
and you have, too. We have appreciated that very much. The 
Interior Subcommittee of Appropriations is a Subcommittee on 
which I serve and we have jurisdiction over the Fish and 
Wildlife Service and we're going to have to do some funding 
with respect to the Caspian tern problem with the Fish and 
Wildlife budget coming up for fiscal year 2001 here in the next 
month. So I would ask you, sir, or Dr. Roby to what extent have 
you determined whether there would be--let me go to Dr. Roby 
first because it's a little more bird oriented.
    To what extent have you, sir, looked at any negative 
impacts that might occur to the birds themselves by moving them 
from Rice Island to East Sand Island or some other location; is 
there any?
    Dr. Roby. We have not a lot to base that on, but we do have 
last year when we attempted to attract a portion of the Rice 
Island tern colony to nest on East Sand Island, using the 
techniques I described earlier, and we were successful, as I 
said, at getting 1400 pairs to nest.
    What was significant to us was that monitoring the nesting 
success of those 1400 pairs, we found that on average they 
raised 1.2 nestlings per nesting attempt. That compares with 
last year at Rice Island where the same figure was .52. So less 
than half the nesting success on Rice Island as on East Sand 
Island. Based on that and a number of other factors our 
scientific conclusion was that it wouldn't constitute an 
inordinate amount of risk to the Caspian tern colony for it to 
be a relocated from Rice Island to East Sand Island.
    Mr. Nethercutt. So have either you or Mr. Bogert anybody 
else on the panel done any analysis of the cost, the dollar 
cost, of moving these Caspian tern populations from Rice Island 
to East Sand Island or to some other location?
    Dr. Roby. That's a tough one. I know about how much has 
been spent on research and monitoring related to this issue 
because I know about the grants that have come to Oregon State 
University for that purpose. I don't have a dollar figure for 
what the Corps of Engineers has spent. I know they've spent a 
substantial amount in restoring the colony habitat on East Sand 
Island and in modifying Rice Island to discourage nesting 
there.
    Mr. Nethercutt. Mr. Bogert, have you in your amicus brief 
done any analysis of the funding needs to complete the transfer 
to the extent that it can be completed.
    Mr. Bogert. Representative Nethercutt, we have. The issue 
that's before the court is whether the harassment strategy 
needed to cease while some of the subsidiary issues related to 
NEPA are worked out. Our fear is that as each day goes by, the 
number of birds that go back to Rice Island, and indeed I think 
Dr. Roby can speak to, each day the birds are proliferating by 
leaps and bounds while the restraining order remains in effect. 
In terms of the actual dollar cost, I can give you our 
perception of what this means to our folks in Idaho perhaps in 
other ways than pure dollars, but in terms of an actual figure 
we couldn't give that to you and it's not at issue per se in 
the case right now.
    Mr. Nethercutt. I understand. Mr. Ilgenfritz, you are a 
part, you meaning the Natural Marine Fisheries Service, are 
part of the Caspian Tern Working Group. Have you done any 
analysis with respect to this issue of removing these terns to 
another location?
    Mr. Ilgenfritz. Funding?
    Mr. Nethercutt. Yes, sir.
    Mr. Ilgenfritz. If we have I am not aware of it. I can look 
into it and get an answer for the record for you.
    Mr. Nethercutt. I would assume that the Caspian Tern 
Working Group would be looking at not only methodology but cost 
of the methodology. Am I in error with respect to the 
conclusion I've reached?
    Mr. Ilgenfritz. That is correct. I wish our Corps witness 
was still here because they are the project lead on that and 
they probably have more direct information about it. It's 
certainly an answer we should be able to get for you in 
relatively short order.
    Mr. Nethercutt. That would be great. If you could provide 
that for the record I would appreciate it. One final question 
before the red light goes on for me, I think the National 
Marine Fisheries Service ought to be looking more thoughtfully 
at the idea that hatchery fish should be allowed to proceed 
along their life course as we try to make sure that wild fish 
are preserved to the extent possible. Has the National Marine 
Fisheries Service looked at initiating a selective harvest 
program with respect to hatchery versus wild salmon?
    Mr. Ilgenfritz. Yes, the short answer is yes. We are 
developing, as I said, the All-H paper and the basic premise of 
that paper is that there is no silver bullet in salmon 
recovery. What is likely to get us there over a long period of 
time is a collection of actions across all of the life stages. 
We need to do things to address harvest, hatcheries, habitat, 
what have you.
    Part of the harvest issue, the tools we have in the tool 
box are just that, improving the selectively of the harvests, 
using time constraints, area constraints, gear constraints so 
that you can ensure when were you prosecuting a fishery you are 
minimizing the take of listed species. There are good tools in 
the tool box. Our challenge is to go out and try to put them 
into the field. So we'll try to do that as we move forward.
    Mr. Nethercutt. What about the issue of mackerel that are 
more prevalent in warm waters that have had a predatory effect 
on listed fish? Have you looked at that whole issue of ocean 
conditions as these new migrating species in warm water 
conditions have an impact on species we are trying to protect? 
Have you spent any money on that whole issue of mackerel; for 
example?
    Mr. Ilgenfritz. Studying mackerel and what they do?
    Mr. Nethercutt. Yes.
    Mr. Ilgenfritz. I am not aware of it. That's another one of 
those that I'll have to get back to you on. I would hazard a 
guess that it's wrapped up in the broader analysis of what 
happens when ocean conditions change.
    Mr. Nethercutt. Your colleague is nodding yes and perhaps 
we can get an answer for the record, and that would be 
grateful. Thank you, Madame Chairman.
    Mrs. Chenoweth-Hage. Mr. Simpson, you're recognized for 
questions.
    Mr. Simpson. Just one question; you have read recently in 
the newspaper reports today that the opinion may come out and 
suggest that over the next five to 10 years the dams in place, 
while other methods are used to try to improve the fish and 
that we have performance standards to measure that improvement 
along the way and that a decision on dams essentially be put 
off for five to 7 years and the debate now is whether five or 
10 years is the appropriate length of time; is that an accurate 
report?
    Mr. Ilgenfritz. The report is accurate.
    Mr. Simpson. It was mentioned by Congressman Nethercutt 
that potentially removing the dams, we probably wouldn't see 
any result from that for maybe 30 years. What kind of 
performance standards would you use in determining if you 
remove the dams if it was recovering salmon in the next five to 
10 years?
    Mr. Ilgenfritz. I'm glad you asked that question because 
I've been wanting to talk about performance standards. 
Performance standards are a tough nut to crack and as you 
imagine the sensitive point is where you actually set the bar. 
As a measurement tool, a management tool, they are ideal in 
concept because they provide a standard for people to shoot at, 
and they provide accountability.
    In the hydro system the range we are looking at spans from 
basically current survivals up to our best estimates of where 
natural survivals might be, expressed as a composite of 
juvenile and adult survival through the system. If you use that 
measure during that base period data that we were talking about 
earlier, survival through the hydro system was probably 40 
percent give or take 5 percent either way. Under the new bi-op 
that we have been operating under the last 5 years, that's up 
to around 59 percent. Our best guess of natural survival is 
that it's in the range of mid-70's to mid-80's.
    The equivalent survival of breaching the four lower snake 
dams and leaving the four lower dams in would be maybe 72 
percent. So we're working with Bonneville and Corps to try to 
put together a range so we can set that standard and be able to 
measure it.
    Harvest is probably the easiest one to set because a fish 
that's caught is a dead fish, and you can base performance 
standards on abundance and escapements. The two really tough 
ones are habitat and hatcheries because habitat actions whether 
you're acquiring land for new reserves or protecting reparian 
areas, screening diversions, in-stream flows and the like, 
those things take a long time to show themselves in the data. 
So our performance standards there in the near-term are more 
likely to be action oriented. You know, did you screen your 
diversions, did you provide passage where appropriate, are we 
taking steps, as Michael mentioned, to try to get our TMDL's in 
place, in-stream flows and the like.
    Hatchery, same story. It's very, very difficult to measure 
the impact of hatchery fish on wild fish. What we need to do 
there is put together a set of experiments and set our 
performance standards based upon what we learned. So there is a 
no silver bullet here, and if we can do it, it will be a neat 
trick because it's a really difficult technical challenge.
    Mr. Simpson. I appreciate that and I appreciate the fact 
there is no silver bullet because one of the concerns I had in 
reading this was that we set performance standards that we are 
supposed to meet between the next five and 10 years and 
ultimately can't reach those potentially or don't reach those. 
So we go to the extreme of removing dams when there are no 
performance standards and we won't know the result of that for 
30 years or beyond. I share that concern and I realize the 
difficulty of setting those performance standards but they have 
to be reasonable performance standards.
    Mr. Ilgenfritz. I hear you and our hope is to, just by way 
of followup, nail the performance standards for the hydro 
system in this bi-op and make sure they're reviewed 
independently so that they are in place as soon as possible.
    Mr. Simpson. Thank you.
    Mrs. Chenoweth-Hage. Mr. Hastings, you're recognized.
    Mr. Hastings. Thank you, Madame Chairman.
    Mr. Hagerty, I want to congratulate you for your testimony 
and particularly your testimony regarding reembargement, which 
as your graph says here was put in place well before there were 
any listings and it was an agreement that was brought together 
by people that were concerned because there were declining 
salmon runs and so you got together with all the people and 
said there must be a solution to this and you worked on that, 
and this graph, at least from my perspective, certainly shows 
that that has been successful, and, Madame Chair, if that has 
not be part of the permanent record, I would ask consent that 
that graph be made part of the permanent record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.302
    
    Mr. Hastings. What I would like to ask, though, Dean, as we 
go along the two facilities, you're going through the process 
of relicensing, and I assuming that part of that process is to 
ensure that it is driven by the Endangered Species Act to make 
sure that the fish passage, et cetera, is all involved there, 
and I know that the conversations that you and I have had in 
the past, one of the big issues that you've had to get through 
or work through in this process is the issue of super 
saturation. Could you elaborate on that just a bit for me?
    Mr. Hagerty. This has been a long, I have been on the 
Commission 18 years so I am familiar with the process since the 
need for getting the fish down the river under the Endangered 
Species Act curtailed much of our ability to produce less 
electricity, last year at Wannapum Dam, as an example, we 
spilled 19 percent of the river flow for fish. This year 
because we added flow deflectors to help decrease the amount of 
nitrogen super saturation in the water, we are currently able 
to spill 38 percent. So in one respect from Grant County 
standpoint by doing something good for the fish we again spill 
more water, which takes generation away from the project. Just 
as an example, four fifths of our load, the current load within 
Grant County is satisfied out of our own projects, Priest 
Rapids and Wannapum, and let's assume that that costs one 
million dollars. The one fifth to make up the five fifths of 
the load to satisfy our project costs us another million 
dollars. That fifth costs us as much as four fifths because of 
the loss of generation.
    Now, these projects provide power to parts of 11 western 
States, as you heard by my comment. There is a lot of power 
generated in these. So these are benefits that are taken away 
from the whole area, but our prime concern is helping the fish 
down the river. That's been our goal.
    Mr. Hastings. So I talked to Mrs. Johansen about the costs 
that BPA is putting into the mix as far as fish recovery. That 
doesn't take into account any of your costs or any other Mid-
Columbia PUD's.
    Mr. Hagerty. No, my 50 million figure that I gave you 
earlier in the testimony that includes our additional cost to 
go out and buy power and we buy a lot from Bonneville. We're a 
preferred customer, preferential customer of Bonneville, but as 
Bonneville costs go up our costs go up with it when we could be 
supplying that at a much lower cost out of our own project, if 
we can figure out a way to get these smolts down the river.
    Mr. Hastings. Once again, it's the ratepayer, your 
customers, because not all of your power goes to Grant County. 
It goes throughout the Northwest. They're all paying this in 
addition to what BPA has added on?
    Mr. Hagerty. Right now we figure that 23 cents out of every 
dollars that we charge ratepayers in Grant County goes for 
fish, 23 cents out of every dollar.
    Mr. Hastings. Thank you. Mr. Ilgenfritz, I want to followup 
on a line of questioning that the Chairman was taking about and 
that's regarding the irrigation. Obviously, I have a big 
interest in this because I have the Columbia Basin Project 
wholly within my District. You said there are ongoing 
discussions. Are you speaking directly to the irrigation 
districts hear within the Columbia Basin, either singularly or 
collectively?
    Mr. Ilgenfritz. My understanding is that the discussions 
that I referenced that are going on between our hydro power 
division, which is based in Portland and the Bureau of 
Reclamation, and further that there have been some meetings 
with State and tribal representatives present at which all of 
the stuff has been discussed as well.
    Mr. Hastings. No irrigation?
    Mr. Ilgenfritz. I'm not aware.
    Mr. Hastings. This boggles my mind. We have 560,000 acres. 
There's three irrigation addition districts, and you're talking 
about something that would impact them, obviously impact the 
economy, and at this point you have not talked to any 
irrigation districts; is that right? Is that what you said?
    Mr. Ilgenfritz. I think the question that we're trying to 
get at is what's the best way to give these projects ESA 
coverage, to wrap them into ABO and get coverage that way with 
one document or whether to consult individually on the 
operations of each small project that might be part of larger 
projects, like the Columbia Basin Project.
    Mr. Hastings. If you have the short timeframe of the BO, 
which I understand is sometime in May and you haven't even 
talked to them and we're less than a month away, I seem to be 
missing something here.
    Mr. Ilgenfritz. Well, it's a source of concern to me that I 
can't give or the Chair a straight answer and I'm hopeful that 
if the hearing record will be open for the next couple of weeks 
that we can get you a straighter answer to that because I don't 
want to leave that hanging.
    Mr. Hastings. One last question, we heard the saga of Jack 
and Jill earlier, and to followup on what Congressman 
Nethercutt was talking about, about ocean conditions and the 
way he postured the question was how many dollars were being 
spent on that. I would like to posture the question a different 
way. Since Jack and Jill apparently spend most of their 
lifetime in the ocean, how much emphasis in your conclusions 
will be weighted on the ocean activity rather than the other 
activity?
    Mr. Ilgenfritz. I think it will be weighted in a couple of 
different ways; one, the discussion we had earlier about the 
base period data that we use and how conservative we are in 
that regard. We still have to make a decision about what to 
assume the ocean is going to do. We can be real conservative 
and assume that it's not going to do much to help the fish. 
It's going to stay bad or we could be real optimistic, you 
know, like OMB in the old days that it's going to produce a 
heck of a lot of fish. We have to make a determination. That's 
the first area.
    The second area is ocean harvest. We try to regulate 
harvest from Alaska through Canada on down Washington, Oregon, 
California through Pacific Salmon Treaty and through the U.S. v 
Oregon process. So we will be factoring harvest impacts in as 
far as analyses that take place in the ocean.
    Mr. Hastings. Thank you.
    Mrs. Chenoweth-Hage. Thank you, Mr. Hastings. I want to 
thank the witnesses for your testimony and I want to thank the 
members for their questions. The members of the Committee will 
have additional questions and we will submit them to writing. 
The record will remain open for sufficient time for you to 
return those. Usually, the record remains open for 10 working 
days for you to be able to alter or add to your testimony, but 
the record will remain open longer so we may receive your 
answers to our questions.
    So with that I do want to thank these witnesses for your 
excellent testimony, and I will say that the hearing will be 
recessed at this point for 10 minutes for a break, and then we 
will be back at work 10 minutes from now. Thank you very much.
    [Recess.]
    Mrs. Chenoweth-Hage. The Committee will come to order and 
the Chair will recognize the last panel; Dr. Mike Skinner, 
Director, Center of Reproductive Biology, Washington State 
University, Pullman, Washington; Mr. Don Swartz, the Science 
and Policy Advisor, Northwest Sport Fishing Industries 
Association, Portland, Oregon, Mr. Antone Minthorn, Chairman, 
Confederated Tribes of Umatilla Indian Reservation in Portland, 
Oregon.
    The chair notes also that the testimony from the 
Confederated Tribes just arrived. Again I must say that the 
rules require that the testimony be in 48 hours in advance of 
the hearing.
    We will accept your oral testimony and we will appreciate 
your standing for questions but in the future we would 
appreciate very much, with all due respect to all of you, we 
appreciate the rules of the Committee being abided by. The 
rules of Congress are certainly no different than the rules of 
the Court or any other body like this.
    So with that, I wonder if the witnesses might stand and 
raise their arm to swear.
    Do you promise and affirm under penalty of perjury to tell 
the truth, the whole truth and nothing but the truth so help 
you God?
    The Panel. I do.
    Mrs. Chenoweth-Hage. The chair recognizes Dr. Mike Skinner 
for your testimony.

     STATEMENT OF MICHAEL K. SKINNER, DIRECTOR, CENTER OF 
  REPRODUCTIVE BIOLOGY, WASHINGTON STATE UNIVERSITY, PULLMAN, 
                           WASHINGTON

    Dr. Skinner. Thank you, Committee, for the opportunity to 
testify. I'll start by clarifying a couple of things. Where I 
would like to start is this is a multifaceted factor problem. 
This is a problem of the biological ecosystem and has a number 
of factors. As you heard a couple of people mention today, not 
one single factor will solve the problem. It will take a multi-
faceted approach with this issue. In the past 3 years we've 
developed a multi-disciplinary approach with the University of 
Idaho and Washington State University. For those of you that 
don't know, there is a lot of collaboration between the two 
universities.
    Mrs. Chenoweth-Hage. I'm really sorry but the court 
reporter is having difficulty understanding. You might take the 
mic out.
    Dr. Skinner. This program involved both Universities as a 
multi-disciplinary program and I won't go through the details 
because I gave it to you in my testimony. This program, to 
clarify, involves over 70 independent faculty investigators, 
independent labs. Within the laboratories there's multiple 
people. So we have two to 400 scientists involved in the 
restoration. I point that out because a lot of people around 
don't realize that outside of the State and Federal agencies 
that the universities are a significant resource on this issue 
and have simply not been rigorously approached. I'll come back 
to that toward the end.
    This program has three main components; habitat, economics 
and biology. Clearly, you've heard a lot about habitat and I 
won't go through in detail. That is a critical issue for the 
salmon. Economics, we feel is equally important because one of 
the major industries in the Northwest is agricultural, and 
anything we can do regarding the salmon is going to impact 
agricultural and it's important for us to understand that 
underlying exchange between salmon restoration and 
agricultural.
    The final thing is biology, and basically this is one area 
of science which we do not feel has been rigorously addressed 
in the last couple of decades. There are a number of facets of 
biology which have not been looked at including looking at the 
biology of the fish, the diseased state of the fish. Simply 
counting the fish does not warrant the whole biology.
    Currently, the activities that are dictate by the State and 
Federal agencies their primary focus is habitat. We agree that 
habitat is essential through the restoration of salmon. However 
it is not scientifically sound to consider that is the only 
parameter that will solve the issue. There are other 
parameters, too.
    Twenty years ago when the Bald Eagle was in danger, there 
were a number of things we could have done to protect the Bald 
Eagle. One of those was habitat. They clearly had their habitat 
being encroached upon. Across the country we could have 
improved eagle habitat to hopefully bring the eagles back. 
Instead what we did, we looked at the biology of the eagle to 
determine what the central problem was and what we found was 
the eagle couldn't reproduce. We figured out what the issue 
was, and the pesticides in the environment was removed, the 
eagles returned.
    We are in the same situation right now with the salmon. We 
could have some great habitats throughout the northwest but if 
we don't really try to understand the central problem we may 
not have any fish left, and we need to address this on a basic 
biological level and it goes beyond counting the fish.
    For example, if this habitat change is going to be put in 
place, which I think is a very important thing to do, there 
needs to be some very critical biological performance measures 
going beyond counting the fish. Looking at early development, 
the whole gambit in terms a terms of biology. If we put those 
performance measures in place, which we can measure immediately 
upon changing the habitats, we can get some immediate turn-
around information, but we don't need to wait two to 4 years 
for a return.
    So we have this capacity at the University level to help 
focus State and Federal agencies to do that. We see the program 
we're proposing as very complimentary. State and Federal 
agencies have a very important task to apply scientific 
knowledge to the issue at hand. So their applied approach to 
the problem is essential. However, the universities provide a 
lot of basic research. We develop a state-of-the-art advances 
to understand this issue. We don't have the ability to apply 
the information so we work with the State and Federal agencies 
to do that.
    The State and Federal agencies don't have the resources, 
such numbers of faculty to draw on. So we see this as a very 
complimentary thing that the universities still have not been 
approached as a resource. Individuals have but not the overall 
universities. So that is one of the issues.
    My final message is this: There is a difference between 
applied and basic research. Universities provide that basic 
research challenge. That's one of the main reasons that we feel 
and we've approached a number of agencies over the past several 
years for this and the criticism of our approach is basic 
research. We feel that is going to be need to provide that 
technical advance to understand the basic problem.
    [The prepared statement of Dr. Skinner follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.281
    
    [GRAPHIC] [TIFF OMITTED] T8012.282
    
    [GRAPHIC] [TIFF OMITTED] T8012.283
    
    [GRAPHIC] [TIFF OMITTED] T8012.284
    
    [GRAPHIC] [TIFF OMITTED] T8012.285
    
    [GRAPHIC] [TIFF OMITTED] T8012.286
    
    [GRAPHIC] [TIFF OMITTED] T8012.287
    
    [GRAPHIC] [TIFF OMITTED] T8012.288
    
    [GRAPHIC] [TIFF OMITTED] T8012.289
    
    Mrs. Chenoweth-Hage. Thank you, Dr. Skinner, and the Chair 
recognizes Mr. Swartz for his testimony.

STATEMENT OF DON SWARTZ, SCIENCE AND POLICY ADVISOR, NORTHWEST 
     SPORTFISHING INDUSTRIES ASSOCIATION, PORTLAND, OREGON

    Mr. Swartz. Thank you, Mrs. Chairperson and panel for 
inviting. I am Don Swartz, Science and Policy Director for 
Northwest Sportfishing Industries Association. We thank your 
for the opportunity to present our views at this important 
hearing on these important issues. These issues are critical to 
our association and sport fishermen here in the Northwest.
    Before becoming a member of this group, I was a fish 
biologist. I worked for the State of Oregon for 31 and a half 
years, and I have been involved in Columbia River fish 
management and hatchery research and so forth for the past 35 
years.
    During part of that time, 1991 to 1996, I was the Chairman 
of U.S. Versus Oregon Technical Advisory Committee and served 
under the Nine Circuit Court on fish management issues on the 
river.
    Today I'm here to ask the House Committee to step back and 
take a broader view of the situation we are in. It isn't just 
about this little valley here. It covers the whole Northwest. 
We need to save jobs and the economic development and 
everything that's gone on here we need to look at the whole 
region as well. We have other places in the region here where 
we are suffering as a consequence of some of the things that 
are happening to our salmon, and we have vacant cannery 
buildings up and down the coast, especially in Astoria. We have 
private fishing boats sitting in the docks all up and down the 
coast. These are trollers, these are charter boats, and what 
not. They are out of business essentially.
    We have abandoned homes on the lower Columbia River that 
used to home commercial fishermen. They have had to move to 
Alaska to stay alive or change occupations, which means they 
had to move away from the river. There's a lot of things going 
on.
    Our industry represents boat manufacturers, tackle 
manufacturers, wholesalers, retailers, mom and pop groceries 
that sell tackle and bait. Guides, charter operations that are 
still in business, there are a few of them. Down the list 
includes motels, hotels, resorts, et cetera, and we have over 
400 members here in the Northwest in the three States, and we 
represent about 40,000 working family jobs. We've lost 10,000 
of those jobs in this industry in the last 10 years since the 
listings started. It's not all, you know, attributable to the 
Snake river dams, but the Snake River dams are one of the key 
issues in recovering salmon.
    When we look at the Columbia Basin, historically they 
produced 10 to 16 million fish a year. These were all natural 
wild produced fish and their spawning grounds went from British 
Columbia to Nevada or the Ewahee River that came out of Nevada.
    Currently, the fish only have access to one half of what 
they formerly could get to and in that one half 70 percent of 
them was in the Snake Basin. The remainder portion of the 
available water shed is in those rivers where we have the 
biggest problems and probably the least likely to recover 
natural production. In the Snake Basin we have 5200 miles of 
good fish productive water and that ranges all the way from 
very poor degraded habitat to pristine habitat. Of that 5200 we 
have roughly 1,000 miles still in the State of Idaho and State 
of Oregon and parts of Washington and Tucannon system. We still 
have about 1,000 miles what we could describe as pristine 
productive habitat. It simply doesn't have any fish in it.
    Now, National Marine Fisheries Service embarked on a new 
study called their critical risk analysis, and the PATH report 
earlier, which was a composite from all scientists from all 
over the Northwest concluded that the Snake Basin the single 
most important thing would be taking out the dams in order to 
restore the fish runs. The new process says maybe we don't need 
to do that. We can do a vigorous job of habitat construction 
and harvest reductions and change our hatcheries around so that 
things are will work better. If we have 1,000 miles of pristine 
habitat where we never stock any hatchery fish and we look at 
our harvest rates on the existing up river spring and summer 
Chinook and they have been at a low 10 percent, and this is 
collectively for the ocean and in the river. They have been 
consistently below 10 percent since 1978 when we had our last 
fishery on those fish, how in the world are we going to make it 
so much better that we can disregard the dams. It just doesn't 
work. There's something wrong in that analysis. I believe 
there's some political science being played here.
    What we are asking is that we step back and take a bigger 
look, broader look. We are spending one billion dollars a year 
and we've made no progress whatsoever. So far we're pouring 
this money into studies and bureaucracies and so forth that 
want to expand on things. I'm running out of time anyway.
    We think we should reinvest that money to the people and we 
need the safe this economy up here and there is certainly 
enough money that we can do it in an overland system. Barge 
transportation is only cheap if we disregard the Corps' 
contribution. The Corps' budget for maintenance on the river, 
if we include that in the analysis, we find that barge 
transportation is probably the most expensive in America. The 
Corps' budget isn't being included in that analysis when we 
consider it cheap. It isn't. If we are not maintaining those 
dams, we have lots of money to invest in the infrastructure to 
keep people up here working at home.
    Mrs. Chenoweth-Hage. Thank you, Mr. Swartz, and the Chair 
recognizes Mr. Minthorn.

  STATEMENT OF ANTONE MINTHORN, CHAIRMAN, BOARD OF TRUSTEES, 
    CONFEDERATED TRIBES OF THE UMATILLA INDIAN RESERVATION, 
                        PORTLAND, OREGON

    Mr. Minthorn. Thank you. My name is Antone Minthorn. I'm 
the Chairman of the Board of Trustees for the Confederated 
Tribes of the Umatilla Indian Reservation in or near Pendleton, 
Oregon. Thank you for the opportunity to be here today, and I 
appreciate your invitation to speak to the Committee, and I 
also apologize for submitting the paper at a late date. It will 
not happen again.
    You have a paper there that we submitted late, and I have a 
very short statement that will cover that very briefly. The 
Confederated Tribes were here when Lewis and Clark came in 1805 
and when the Oregon Trail came through in 1843. Our tribes are 
the Cayuse, Umatilla and Walla Walla. This region is our home. 
The tribes held a treaty council with the U.S. Government in 
1855 in the Walla Walla Valley in Washington territory. Other 
tribes present were the Yakama, Nez Perce and a few northern 
tribes.
    At the Treaty Council the Confederated tribes gave over 60 
million acres to the U.S. Government. The ceded area is 
Southeastern Washington and Northeastern Oregon, which includes 
the Columbia and Snake Rivers and tributary waters. Other 
millions of acres were ceded by the Yakama and Nez Perce 
tribes.
    The Confederated Tribes reserved certain rights ceded areas 
and a very important right is to take fish at all streams 
running through and bordering the Reservation and at all the 
usual accustomed places. Salmon have always been an important 
economic and cultural right of our people who live in this 
country. We have always depended upon the salmon. That is why 
we are here today.
    As I recollect in the 1960's there were still salmon from 
the tributaries in our Northeast Oregon ceded area. I used to 
catch them in Catherine (phonics) Creek, a tributary of the 
Grande Ronde River in Oregon. I also fished at Celilo Falls in 
1957, the last year of the falls, but in the 1970's, the salmon 
runs were no longer there. There was always a concern by people 
about the disappearance of the salmon, but nothing was done 
until the late 1980's.
    The Columbia River Inter-Tribal Fish Commission was created 
in the 1970's and the Columbia River Inter-Tribal Fish 
Commission is a regional Indian fisheries organization. The 
Confederated Tribes became involved with salmon issues in the 
mid-1980's with salmon restoration in the Umatilla River, where 
the runs became extinct due to irrigation diversions in the 
early 1900's by the Bureau of Reclamation. The Tribe's approach 
was to negotiate, cooperate, not to litigate. The project that 
I'm referring to is called the Umatilla Basin Project and it 
has been successful in putting water and fish back into the 
river, and I think you are probably familiar with that 
particular project.
    In order for it to succeed, it took a high level of 
cooperation and leadership to achieve it. The Confederated 
Tribes, the irrigators, Federal agencies, State agencies all 
worked together to achieve that accomplishment and that 
victory. In the process of restoring salmon water to the 
Umatilla River, the Tribe has the capability and the capacity 
to manage their fisheries.
    One year there were 10,000 salmon returning to the Umatilla 
River, and salmon runs are beginning this year and we don't 
know how that will come out when the run is over, but it has 
been successful.
    The Tribe's concern over the declining salmon runs resulted 
in a Tribal salmon policy. The policy is based upon the life 
cycle of the salmon. It is a comprehensive approach which 
includes dam breaching. This policy has been approved by the 
Tribal people.
    Another major plan document is Wy-Kan-Ush-Mi Wa-Kish-Wit, 
Spirit of the Salmon. This plan is implemented by the Columbia 
River Inter-Tribal Fish Commission. This plan takes a regional 
approach and works with subbasins. It's basic concept is gravel 
to gravel.
    The concluding remarks that I have are that the Tribes have 
been effective in restoring salmon again referring to the 
Umatilla Basin Project as an example. We have built a capacity 
at the regional and local levels. We have scientists. We have 
successfully worked with other sovereigns and jurisdictions 
both in Oregon and Washington State. We want our voice heard in 
the river governance process, and we want the Federal 
Government to continue to honor its Treaty and trust 
responsibilities. These are my very brief remarks to the 
Committee here. And I just want to say that I think that we can 
succeed if we stay together. That's all. Thank you.
    [The prepared statement of Mr. Minthorn follows:]

    [GRAPHIC] [TIFF OMITTED] T8012.290
    
    [GRAPHIC] [TIFF OMITTED] T8012.291
    
    [GRAPHIC] [TIFF OMITTED] T8012.292
    
    [GRAPHIC] [TIFF OMITTED] T8012.293
    
    [GRAPHIC] [TIFF OMITTED] T8012.294
    
    [GRAPHIC] [TIFF OMITTED] T8012.295
    
    [GRAPHIC] [TIFF OMITTED] T8012.296
    
    [GRAPHIC] [TIFF OMITTED] T8012.297
    
    [GRAPHIC] [TIFF OMITTED] T8012.298
    
    [GRAPHIC] [TIFF OMITTED] T8012.299
    
    [GRAPHIC] [TIFF OMITTED] T8012.300
    
    [GRAPHIC] [TIFF OMITTED] T8012.301
    
    Mrs. Chenoweth-Hage. Thank you, Mr. Minthorn. The Chair 
will recognize members for their questions beginning with Mr. 
Hastings.
    Mr. Hastings. Thank you. Mr. Minthorn, you touched briefly 
on the successes you had with the returning runs on the 
Umatilla River and according to your testimony you said those 
runs had been gone for some 70 years; is that correct?
    Mr. Minthorn. That's correct.
    Mr. Hastings. In case I missed it, I was trying to read and 
listen at the same time, when did that project start to restore 
these runs? How long has that been ongoing?
    Mr. Minthorn. The project was authorized in 1988, and we 
began working at that time--we began to put salmon into the 
river right then and there.
    Mr. Hastings. These were hatchery fish?
    Mr. Minthorn. That's correct.
    Mr. Hastings. They were hatchery fish. Do you consider 
returning runs still hatchery fish or do you consider them wild 
fish, wild salmon?
    Mr. Minthorn. I think that there are hatchery fish and 
there are wild fish. Those that are reintroduced into the 
lifecycle and begin to thrive, then I would consider they are 
getting into that area of being wild.
    Mr. Hastings. One generation would probably be sufficient 
then or did you consider hatchery fish that left after you made 
the initial effort, then when they came back the second 
generation would be wild salmon from your perspective?
    Mr. Minthorn. From my perspective, yes, and I'm not a 
biologist, but just from a Tribal member.
    Mr. Hastings. No, I'm not a biologist either. In that line 
of thinking, most of the discussions has been on saving wild 
salmon runs. Does your Confederation take into consideration 
any distinction between wild runs and salmon runs and would it 
make any difference to you if the returning fish were hatchery 
fish or salmon? Does it make any difference to you as long as 
the fish are returned, to put it bluntly?
    Mr. Minthorn. It makes a difference in that we use hatchery 
salmon to supplement the fishery, and if the wild fish are 
there, we certainly want to get those wild fish back and to 
preserve and protect them.
    Mr. Hastings. I understand that. What you said a moment 
ago, the second generation would be wild fish from your 
perspective?
    Mr. Minthorn. From my perspective, yes.
    Mr. Hastings. Right, OK, good. You also mentioned in your 
testimony while most of the focus has been on dam breaching, 
you have not really taken a hard fast position on that or did I 
read that incorrectly?
    Mr. Minthorn. Just when I talked about the Umatilla Basin 
Project and that the approach we took there was to negotiate 
not to litigate and to work, to begin to try to work these 
problems out with the irrigators, which has been a very 
difficult process. In fact, we are still working on it yet, but 
the Umatilla Basin Project will be completed May 20th. That's 
when we have the ceremony for that in closing out that phase of 
the Umatilla Basin Project.
    Mr. Hastings. I would just say that the Umatilla Basin 
Project that you have been working on that has been successful 
because you have returning run now. It appears to be 
consistent. The Vernita Bar Agreement, which is another 
agreement that was primarily based on local initiative, to me 
that is a very good model for looking ahead. I want to be one 
to congratulate you for keeping an open mind on this because 
you heard by the testimony earlier today that there's some 
pretty hard feelings on both sides of this issue?
    Mr. Minthorn. We are open but, like I say, we have a salmon 
policy that was approved by our General Council, which is 
Tribal membership and adopted by the governing body, but our 
salmon policy does look at the salmon cycle in which all the 
problems and issues are, and dam breaching is on that cycle 
amongst all the other problems that are there. So we tend to 
look at it more from what you might call a holistic view.
    Mr. Hastings. One thing that struck me and what I have 
looked at, I want to ask you this and Mr. Swartz this question 
too. NMFS has taken the notion or the initiative to list what I 
would say sub-species, upper Columbia or lower Columbia and so 
forth. So taking that notion, it is interesting that there is 
at least two runs of Sockeye. One spawns in Lake Wenatchee, I 
believe, and another spawns in Lake Usoyoos (phonics) and those 
runs are remarkably consistent all the way throughout the 
lifetime of the dams being on the river. In those days you had 
to go through nine dams, and yet those returns have been 
remarkably consistent, which would indicate to me that there 
may be something else in the biological mix that causes salmon 
runs not to come back. Do you have any comment on that, either 
one of you?
    Mr. Swartz. If we look back about 20 years ago, the main 
body of Sockeye coming back to the Columbia River was from the 
two ways that you're describing. We had about 200,000 a year 
coming back. In the more recent years, it's more on the order 
of 30 to 50,000, considerably reduced. I think that's a 
reflection of poor ocean conditions. And those runs we still 
consider healthy. They weren't considered for listing and they 
are reproducing. They simply aren't at levels that we like to 
see them where they're harvestable. We probably need at 30 to 
50,000 a year virtually all of those fish's farms. Given a 
better ocean condition they might come back up to a quarter of 
a million a year.
    The passage problems and so forth are quite a bit different 
between the Snake and the main stem Columbia. The main stem 
Columbia is a much bigger river, and the water temperature a 
lot cooler, and the Snake, we have all kinds of problems in the 
reservoirs there with high temperatures and all the gas 
problems and everything else. It's just a different 
environment.
    Mr. Hastings. They have a longer way to go from the mouth 
of the Snake River to where they can go a little farther. Up 
Hell's Canyon is a lot shorter than where the mouth of the 
Snake River is.
    Mr. Minthorn. That's not true. All the way up the Snake as 
far as the Salmon River and all the way up the Salmon River 
clear to Head Water Lakes by Sun Valley. Each trip is just as 
far as going to British Columbia on the mainstem Columbia.
    Mr. Hastings. So the length is essentially the same. Mr. 
Minthorn, you need to clarify something.
    Mr. Minthorn. I don't have too much to comment on regarding 
Sockeye. I know that in the Umatilla there is a run of 
steelhead that did not get wiped out by the irrigation 
diversions but was able to survive. So I just mention that 
because I guess maybe some fish are better able to survive.
    Mr. Hastings. One last question, Mr. Swartz. We opened this 
hearing today with a video on the Oregon fish and wildlife, I 
think clubbing hatchery fish. What is your response to that?
    Mr. Swartz. Well, we've always clubbed hatchery fish. Those 
videos that we saw were very typical of what is happening on a 
spawning day in any hatchery. Those particular fish were 
Chinook, not Coho. This issue became a national thing a couple 
of months ago because of the situation down in Fall Creek, 
which is on the Central Oregon coast. We killed, the Department 
killed about 4,000 Coho in 1998 that they decided they didn't 
want them to spawn in the river.
    There are certainly places where our hatchery fish are very 
poorly suited for natural production. That particular river 
fish is one of them. In the Snake Basin, the hatchery programs 
that we've developed there and all of them are as a result of 
the Lower Snake compensation program. That's only about 20 
years old now. All of those were designed completely 
differently.
    We use wild stock or brood stock and then incorporate wild 
stock in the brood stock every year. Those fish up there are 
only one generation removed from the wild fish, and they are 
not killing or clubbing those fish in the Snake Basin, for 
example, that are surplus. They leave them in the river and let 
them spawn. The policy of the Oregon Fish and Wildlife is if 
the fish is not a good match for the natural fish in the river, 
then they reduce the fitness if they commingle with them and we 
should remove them. The reason those fish down at Fall Creek 
are not a good fit they come back and spawn in the month of 
October and the wild fish spawn in December and January. We 
have evolved that fish over about 40 generations of artificial 
culture and we started taking earlier and earlier fish so that 
we had a longer time period to get them up to size, get them to 
the ocean, to be a very high survival and return rate on them. 
They contributed very heavily to the troll fish throughout the 
Oregon Coast. That was the principal purpose those fish were 
developed for. They fed a very large, a very productive troll 
fishery and recreational fishery offshore. That fishery is gone 
now.
    We're not supplying fish to anybody anymore. We're simply 
going through a process where they're isolated from wild fish 
because of their time and life history and leaving them in the 
stream to actually challenge and compete with the native fish 
is a bad idea. Mother Nature designed the fish fit to habitat 
and spawn at an appropriate time. So young fish come out of the 
gravel when there's food supply and water temperatures are 
coming up and things are right. So the little fish will survive 
it well.
    The hatchery fish submerge much too early in the 
wintertime.
    Mr. Hastings. One last question. Your brought up other 
fish. What about non-indigenous fish, like shad and walleye, 
which compete for our food source, which has to have an effect, 
I would think, and also the walleye probably is a predator, I 
would guess.
    Mr. Swartz. It is.
    Mr. Hastings. Is there anything that we should be doing 
about that?
    Mr. Swartz. We took the bag limit off walleye and 
Washington wanted to make them a trophy fish and manage them 
for special species. Oregon debated on whether we should do 
that or not, and for a while we agreed with Washington and 
said, OK. All of the research show that walleye are a predator. 
It's endangered fish that they are eating. Why offer them 
protection for restricted bag limits and so forth. We opted to 
take the bag limits off.
    Mr. Hastings. One last question and thank you for your 
indulgence. Do you have any studies as to what or how many 
salmon are displayed by the introduction of shad as a 
competitor or Wall Eye as a predator, any studies?
    Mr. Swartz. I wouldn't say that they're displaced. They may 
compete for food as juvenile, but salmon typically spawn in 
areas that are beyond the range of shad. Salmon steelhead go up 
the main roer and turn into the tributaries and spawn in the 
head water area with the exception of Falchina (phonics). 
Falchina do spawn in the main stem.
    Shad spawn only in the main stem and the young of year 
migrate out of the system within about 3 months.
    Mr. Hastings. Isn't it a threat to the salmon to be 
migrating out rather than coming back from the shad?
    Mr. Swartz. I'm sorry, I didn't understand.
    Mr. Hastings. Isn't the threat of the shad to the salmon in 
relation to when the salmon are smolts, rather than when they 
are coming back? That's when they compete for food.
    Mr. Swartz. Shad aren't feeding. They're like salmon. When 
they come in to spawn that's all they've got on their mind. 
They aren't feeding in the river. So adult shad is moving 
upstream and they are not competing for food with the juvenile 
salmon that are moving down stream. Just like the adult salmon 
coming upstream, they cease feeding when they leave the ocean.
    Mr. Hastings. Thank you.
    Mrs. Chenoweth-Hage. Mr. Nethercutt is recognized for 
questions.
    Mr. Nethercutt. Thank you, Madame Chairman.
    Mr. Swartz, you, sir have been a fish biologist for 31 and 
half years.
    Mr. Swartz. With the Oregon Department of Fish and 
Wildlife.
    Mr. Nethercutt. I'm sorry?
    Mr. Swartz. With the Oregon Department of Fish and 
Wildlife; yes.
    Mr. Nethercutt. And you spent most of your life in Oregon?
    Mr. Swartz. Yes.
    Mr. Nethercutt. Coastal location Portland?
    Mr. Swartz. In Portland; yes.
    Mr. Nethercutt. That's where you spent most of your time?
    Mr. Swartz. Yes.
    Mr. Nethercutt. And you're here representing the Northwest 
Sportfishing Industries Association?
    Mr. Swartz. That's right.
    Mr. Nethercutt. You're advocating for sportfishermen in 
connection with your testimony here today?
    Mr. Swartz. That's right.
    Mr. Nethercutt. You've never lived inland, I take it, in 
farm economy or farm country?
    Mr. Swartz. No.
    Mr. Nethercutt. And you're concerned, are you not, mostly 
about the economic consequences to the sportfishing industry 
that you represent?
    Mr. Swartz. That's one of my concerns, yes. As a biologist 
I'm also concerned about resources.
    Mr. Nethercutt. I understand. I appreciate and respect 
that. However, sir, would you acknowledge that there would be 
severe economic consequences to the agricultural economy of the 
interior of Washington, Oregon and Idaho? Would you acknowledge 
that if the dams were breached?
    Mr. Swartz. If they were breached and there were no 
mitigating actions; yes.
    Mr. Nethercutt. All right, and you also acknowledge, I 
assume, or accept the testimony today that it would take seven 
or 8 years, as testified by the National Marine Fisheries 
Service to remove those dams, deconstruct them; is that 
correct?
    Mr. Swartz. The Corps has told us repeatedly it would take 
them about 10 years to work up a design to get the operations 
in place. None of the dams will be gone for at least 10 years 
from the time the decision is made to take them out.
    Mr. Nethercutt. During the deconstruction period, there's 
also a period of time that there would be interruption on our 
river systems on the Snake and Columbia, assuming there would 
be deconstruction of the Columbia at some point; correct?
    Mr. Swartz. Yes.
    Mr. Nethercutt. What is your calculation as to what would 
happen to fish populations in their ability to return up the 
river system during that deconstruction period of time, be it 
five or six or seven or 8 years? Would it be a negative?
    Mr. Swartz. It probably would.
    Mr. Nethercutt. And that's a life cycle of a fish, some 
fish in this discussion; right?
    Mr. Swartz. At any one location I don't think the 
interruption would be that long, but certainly we would look at 
some mechanism for transporting fish around or whatever 
transpired.
    Mr. Nethercutt. I understand. I assume with respect to the 
economic loss, you would also acknowledge that if the dams are 
breached over this seven or six or 10 year period, whatever 
that might end up being, there would be a severe economic 
consequence to the agricultural industry?
    Mr. Swartz. We are looking at the likelihood that it's 
going to take 10 years, and I think that we need to start 
looking at how do we deal with, once the dams are gone or even 
the deconstruction time period, how do we serve people that are 
dependent on water from the dams or transportation and so forth 
and deal with those things before we pull the plug.
    Mr. Nethercutt. I understand and also you acknowledge, I 
assume, that based on the testimony there is here today and 
based on your experience as a fish biologist with the State of 
Oregon that we wouldn't know whether there would be any 
positive benefits as a result of dam breaching from anywhere 
from eight to 30 years; do you acknowledge that?
    Mr. Swartz. No, I think that the current situation is the 
survival rate of smolts leaving the Snake River albeit whether 
they come down the river or whether they come down on a barge 
is considerably less than that from all of the fish from 
Hanford Reach on down the river. We are getting such low 
survival on the Snake River fish that the decline rate on them 
is very severe, and I think a lot of the other fish that are 
being looked at by NMFS and listed and so forth, we are going 
to see a recovery fairly quickly with better ocean conditions 
and so forth.
    I don't think a better ocean is going to stop the decline 
on the Snake.
    Mr. Nethercutt. How would you suggest that we get better 
ocean conditions? How can we manipulate temperature?
    Mr. Swartz. We can't.
    Mr. Nethercutt. OK, that's a serious part of this issue.
    Mr. Swartz. That's a problem that's been going on for 
centuries, as long as salmon have been here.
    Mr. Nethercutt. Yes, sir, can't control that?
    Mr. Swartz. No.
    Mr. Nethercutt. But that's a significant part of this 
problem?
    Mr. Swartz. It contributes to it. I'm not going to say it's 
the whole problem.
    Mr. Nethercutt. Is it significant?
    Mr. Swartz. Certainly.
    Mr. Nethercutt. Dr. Skinner, I wonder if you, sir, could 
advise the Committee whether you have done or any of your 
colleagues in the university system that you know of have done 
any research to determine the difference genetically between 
wild and hatchery fish?
    Mr. Skinner. The principle of that out has been shown if 
you take a trout from one river to another river, there is an 
adaptation by a specific genetic strain, such as they are 
different between river. It's presumed to be similar to the 
salmon. It's not been aggressively looked at at this point.
    It is demonstrated stone trout when transferred cannot 
survive. So clearly it demonstrates that there is a genetic 
difference between the different strains in the rivers.
    Mr. Nethercutt. Are you aware of any genetic studies on 
salmon by Federal or non-Federal sources?
    Mr. Skinner. Right now the primary push on the Federal side 
is the trout. Salmon has not been looked at. There has been a 
very little bit of mapping but it's not an extensive level 
right now.
    Mr. Nethercutt. Has the research that you've done, the 
basic research that your university and others may have done 
been utilized in any respect that you know of by Federal 
agencies.
    Mr. Skinner. Our university, no. NMFS is doing some with 
Federal funds. We generally at the university level work on a 
more shoe string operation. Sometimes we get State funding and 
so forth but we don't have Federal money.
    Mr. Nethercutt. Let me ask you, how much money would you 
recommend be allocated to basic fish reproduction, biological 
reproduction research and over what period of time and when 
could you provide some positive information based on the 
estimate that you can come up with today that would be of 
assistance to the National Marine Fisheries Service, this 
Committee, and Congress and everybody who cares deeply about 
trying to figure out this problem solving?
    Mr. Skinner. It would take about six million a year and in 
5 years we would have results. In other words, we already have 
information coming out on the genetics that suggest--.
    Mr. Nethercutt. I'm having trouble hearing. Are you having 
trouble hearing?
    Mr. Skinner. What we are proposing is a six million dollars 
program for 5 years. That would be an extended program to look 
at the bases for habitat to biology relationships that we are 
looking at. We already have some basic information to suggest 
that there are some basic biological problems on the genetic 
set and reproduction level that we are just now starting to 
scratch the surface on much beyond the things we've talked 
about today. We think there are some basic problems with these 
fish even though they look perfectly normal. They may not be 
perfectly normal in reproduction or genetics.
    Mr. Nethercutt. How fast would be you be in a position to 
provide a report to the Congress or the National Marine 
Fisheries Service or Fish and Wildlife?
    Mr. Skinner. On the research going forward probably within 
two to 3 years. We basically say this is what the basic problem 
is and the University could not apply the solutions. The State 
and Federal could apply.
    Mr. Nethercutt. Thank you.
    Mrs. Chenoweth-Hage. Do you have anything further?
    Mr. Nethercutt, any further questions?
    Mr. Nethercutt. Just one final question; I don't mean to 
badger you here, Mr. Swartz. I am wondering, sir, if the 
Northwest Sportfishing Association has insisted on 
participating in discussions with Washington State or Idaho or 
Oregon with respect to ideas you have for improving salmon 
populations similar to the State timber, fish and wildlife 
program or the ongoing agriculture fish and wildlife program; 
are you familiar with those programs?
    Mr. Swartz. No, I'm not.
    Mr. Nethercutt. OK, would you be willing to participate in 
continuous discussions with relative interest with regard to 
this problem with agriculture, timber and so forth to try to 
solve this problem?
    Mr. Swartz. Yes, we routinely volunteer that kind of 
participation. We want to be heard and we want to be recognized 
as an industry. Just last week Senator Smith referred to our 
concerns as, we can't handle it. What do you account for? Well, 
we generate about three billion dollars worth of economic 
output here in the northwest region and we feel that it's a 
little bit more than just weekend angling.
    Mr. Nethercutt. I understand and I acknowledge it's more 
than that as well. It's a valuable resource. You have to try to 
keep it, but it's the big picture we ought to try to solve.
    Mr. Swartz. We agree with that.
    Mr. Nethercutt. All right, sir. Thank you to all the panel.
    Mrs. Chenoweth-Hage. Thank you, Mr. Nethercutt. I want to 
thank the witnesses for testifying and the members for their 
questions. The members of the Committee may have additional 
questions for the witnesses and we will ask you to respond to 
these questions in writing within 30 days.
    The hearing records will be held open for the witnesses for 
10 working days should you wish to add anything to your 
testimony.
    I do want to say that this has been a most interesting 
hearing. The impact of this issue is reverberating around the 
world. Not only do we see national and international news 
organization focusing on our working river, the Columbia River 
system and the Snake River, but we're also seeing organizations 
and businesses that are not only national in scope but 
international in scope. If we are to be intellectually honest I 
think we need to begin to ask ourselves, why does the 
government want complete control of not only the operation of 
the river but of our ability to produce a living in the 
Northwest?
    As I evaluate what's happening and the impact for those to 
have the ability to communicate nationally and worldwide and as 
I look hopefully into the future I hope that we will return to 
solid scientific data to make our decisions on. I hope in the 
near future that we will be able as a nation, as a government, 
as a Congress to give very clear direction to the agencies in 
which to operate.
    I hope in the near future that we will be rid of this 
situation we are now involved in where agencies on their own 
can move the goal posts as we witnessed today in the moving of 
the impact of the FCRPS, the Columbia River system, not only 
from the dams on the Columbia but also impacting systems moving 
clear into Montana and Idaho. This continual moving of the goal 
posts will create utter confusion. It will be very costly and 
probably serve not to bring one additional fish back up to 
their traditional spawning grounds.
    I think it's becoming increasingly clear to us that the 
fish is a surrogate for something else, and I have a couple of 
very interesting quotes I would like to close with. One is 
from--Actually, one is from the Tri-City Herald and one is from 
the Lewiston Tribune, a quote on December 18, 1999, and this 
quote is by Will Stell, National Marine Fisheries Service 
Regional Director, when he said, ``The best thing for fish 
would be to end all riparian development, take out the dams and 
move east.''
    And then a quote from Ann Bagley, who is the Pacific Region 
Director for the U.S. Fish and Wildlife Service, who is quoted 
also in the Lewiston Tribune, December 18, 1999. The bottom 
line, she said, ``Bottom line biological conclusion is a no 
brainer. For native species it's a free flowing river, not a 
dammed river.''
    Then with a situation that's going on right here in Mr. 
Hastings District in Methow Valley, Mike Grady, from National 
Marine Fisheries Service, was quoted December 8, 1999, in an 
issue of the Wall Street Journal as saying, ``Endangered 
Species Act gives us the right to set target flows. We are 
blind to State and local laws. We are blind and local laws. All 
we care about is getting that block of water to the fish.''
    We are standing on the very edge of viewing our agencies in 
a state of total disregard for the rules of law, and that's 
very alarming to those us that sit on this panel as well as the 
entire Congress. The alarm should extend beyond any party 
boundaries but should be shared by all of us, because only when 
we all operate under the same rule can there be order and can 
people live together peacefully without one group of people 
imposing by force their will on others.
    This is our first responsibility is to keep the peace, and 
I know that we are committed to do that. Part of keeping the 
peace and making sure that we have the right information with 
which to make our decisions are these hearings, and I want to 
extend my personal thanks to Chairman Don Young, who is in 
Alaska right now and to Chairman John Doolittle. I want to the 
thank the staff for their excellent work in preparation and 
work through these committees, and I want to thank Congressman 
Hastings and Congressman Nethercutt for inviting us into 
Washington.
    So with that I will say again that the record will remain 
open. We will look forward to the receipt of your answers, and 
if there is no further business this hearing is adjourned.
    [Whereupon, the Committee was adjourned.]


</pre></body></html>
